<html>
<title> - PLUTONIUM DISPOSITION AND THE U.S. MIXED OXIDE FUEL FABRICATION FACILITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-130]
 
                     PLUTONIUM DISPOSITION AND THE
                   U.S. MIXED OXIDE FUEL FABRICATION
                                FACILITY

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 26, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                    U.S. GOVERNMENT PRINTING OFFICE
33-597                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


                     STRATEGIC FORCES SUBCOMMITTEE

                    TERRY EVERETT, Alabama, Chairman
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
TRENT FRANKS, Arizona                JOHN SPRATT, South Carolina
MICHAEL TURNER, Ohio                 LORETTA SANCHEZ, California
MIKE ROGERS, Alabama                 ELLEN O. TAUSCHER, California
JOE SCHWARZ, Michigan                RICK LARSEN, Washington
CATHY McMORRIS, Washington           JIM COOPER, Tennessee
GEOFF DAVIS, Kentucky
             William Ostendorff, Professional Staff Member
                Bob DeGrasse, Professional Staff Member
                Eryn Robinson, Professional Staff Member
                    Katherine Croft, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Wednesday, July 26, 2006, Plutonium Disposition and the U.S. 
  Mixed Oxide Fuel Fabrication Facility..........................     1

Appendix:

Wednesday, July 26, 2006.........................................    35
                              ----------                              

                        WEDNESDAY, JULY 26, 2006
    PLUTONIUM DISPOSITION AND THE U.S. MIXED OXIDE FUEL FABRICATION 
                                FACILITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Chairman, 
  Strategic Forces Subcommittee..................................     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Strategic Forces Subcommittee..........................     2
Spratt, Hon. John, a Representative from South Carolina..........     3

                               WITNESSES

Anderson, Charles E., Principal Deputy Assistant Secretary, 
  Office of Environmental Management, U.S. Department of Energy..    25
Brooks, Ambassador Linton F., Under Secretary for Nuclear 
  Security and Administrator, National Nuclear Security 
  Administration, U.S. Department of Energy......................    22
Bunn, Matthew, Senior Research Associate, Belfer Center for 
  Science and International Affairs, John F. Kennedy School of 
  Government, Harvard University.................................     6
Guhin, Ambassador Michael, U.S. Fissile Materials Negotiator, 
  U.S. Department of State.......................................    28

                                APPENDIX

Prepared Statements:

    Anderson, Charles E..........................................    81
    Brooks, Ambassador Linton F..................................    76
    Bunn, Matthew................................................    57
    Everett, Hon. Terry..........................................    39
    Guhin, Ambassador Michael....................................    86
    Reyes, Hon. Silvestre........................................    49
    Spratt, Hon. John............................................    52

Documents Submitted for the Record:

    Joint Statement of Samuel Bodman and Sergey Kiriyenko on the 
      U.S.-Russian Excess Weapon-grade Plutonium Disposition 
      Program....................................................    95
    Strategy for Disposing of Surplus Special Nuclear Materials..    97

Questions and Answers Submitted for the Record:

    Mr. Everett..................................................   107
    Mr. Spratt...................................................   110
    Mr. Turner...................................................   112
    PLUTONIUM DISPOSITION AND THE U.S. MIXED OXIDE FUEL FABRICATION 
                                FACILITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Wednesday, July 26, 2006.
    The subcommittee met, pursuant to call, at 3:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Terry Everett 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM 
        ALABAMA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. We will come to order.
    The Strategic Forces Subcommittee meets today to receive 
testimony on plutonium disposition and the mixed oxide fuel 
fabrication facility.
    Thank you all for coming.
    I welcome Dr. Matthew Bunn, senior research associate at 
the Belfer Center for Science and International Affairs at the 
John F. Kennedy School of Government; my good friend Ambassador 
Linton Brooks, Administrator, National Nuclear Security 
Administration; Mr. Charles Anderson, principal deputy 
assistant secretary for environmental management at the 
Department of Energy; and Ambassador Michael Guhin, fissile 
materials negotiator for the U.S. Department of State.
    I have read the written testimony of the witnesses that has 
been submitted for the hearing, and I am concerned that the 
statements do not fully address specific questions that were 
posed by the subcommittee.
    The Administration's process for clearing testimony can be 
quite onerous, so hopefully the oral statements will include 
more specifics. If not, I am sure the questions from the 
members will get right to the point, so we can have an 
informative hearing on this complicated topic.
    We have two panels for the hearing today. The first panel, 
Mr. Bunn, will provide a scientific perspective on the cost and 
benefits of mixed oxide fuel, MOX, as compared to alternative 
plutonium disposition.
    In the second panel, Ambassador Brooks will discuss whether 
the Department of Energy's MOX fuel fabrication facility is the 
most effective and appropriate means for managing and disposing 
of U.S. weapons-grade plutonium.
    Mr. Anderson has been asked to discuss the Department of 
Energy's recent analysis of options for plutonium disposition 
and present the Department's position on domestic plutonium 
disposition.
    And Ambassador Guhin will provide testimony on the current 
status of negotiations with Russia over execution of the 2000 
U.S.-Russian plutonium management and disposition agreement and 
the State Department's perspective on current non-proliferation 
negotiations with Russia.
    This hearing is an important opportunity to discuss the 
disposition of surplus plutonium, including key issues such as 
the need to determine whether MOX is the most effective means, 
both from a cost and technical perspective, for managing and 
disposing of excess U.S. weapons-grade plutonium; finding a 
means to move forward with the plutonium disposition and avoid 
costs incurred by delays while preserving the diplomatic 
relationship; and how to ensure that MOX, if continued, remains 
on track with respect to the cost, schedule and technical 
challenges.
    These issues also bring to bear a provision in the defense 
authorization bill for fiscal year 2007, H.R. 5122. This 
subcommittee included language that directs the Department of 
Energy to report on its plans for the disposition of all 
surplus plutonium within the Department's inventory. This 
includes both weapons-grade plutonium as well as plutonium that 
is not suitable for conversion to MOX fuel.
    In addition, this subcommittee has directed the Department 
should do the following: First, give the cost to date of the 
U.S. MOX project and, considering other alternatives for 
plutonium disposition, certify that the U.S. MOX is the most 
effective means for managing and disposing of U.S. weapons-
grade plutonium; and second, develop a corrective action plan 
for addressing the issues raised by the inspector general 
concerning the management of U.S. MOX project.
    This session is open, and under Rule 9 of the committee I 
would ask members for their cooperation in keeping their line 
of questions completely unclassified.
    Now, let me recognize my good friend and associate, the 
ranking member of the subcommittee, Mr. Reyes.
    [The prepared statement of Mr. Everett can be found in the 
Appendix on page 39.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Reyes. Thank you, Mr. Chairman.
    And welcome to all the witnesses. I want to thank each of 
you for taking time from your busy schedules to be with us 
today.
    But I also want to echo the concerns raised by you, Mr. 
Chairman, about the quality of the written statements we 
received from the members of the Administration, as I read them 
last night. They clearly did not answer the questions posed in 
the hearing invitation letters. Hopefully the witnesses can 
address these questions in their oral statements here today.
    Mr. Chairman, my comments will be brief because I want to 
yield my time to Congressman Spratt, who is recognized probably 
as the member that knows the most about what we are about to 
discuss in this hearing.
    Almost 15 years have passed since the collapse of the old 
Soviet Union. Much has changed since that time. However, the 
legacy of our nuclear weapons and that competition with the 
former Soviet Union lives on in the weapons facilities and 
materials that remain today.
    This hearing gives us a chance to examine what the United 
States is doing to consolidate and dispose of surplus fissile 
materials that can be used for nuclear weapons in both Russia 
and our own backyard.
    Specifically, we have asked our witnesses to discuss plans 
for disposing of excess plutonium. In June 2000, the United 
States and Russia agreed to dispose of at least 34 metric tons 
of plutonium each, beginning next year, in 2007.
    However, this program has been stalled for years over the 
issue of liability and more recently by uncertainty about the 
technical means by which the Russians would render their 
plutonium unusable for weapons.
    The hearing today allows the subcommittee to reflect on the 
initial reasons for pursuing a vigorous plutonium disposition 
program and to explore the Administration's current plans for 
disposing of domestic plutonium, given the uncertainty 
surrounding the Russian program.
    So with that, Mr. Chairman, thank you again for calling 
this very important hearing, and I look forward to the 
testimony of our witnesses.
    At this time, I would yield the balance of my time to Mr. 
Spratt from South Carolina, who is probably the most 
knowledgeable member of the committee on this very subject.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 49.]

  STATEMENT OF HON. JOHN SPRATT, A REPRESENTATIVE FROM SOUTH 
                            CAROLINA

    Mr. Spratt. Thank you, Mr. Reyes, for yielding your time 
and for that kind compliment, though I am not sure I can vouch 
for its accuracy.
    And, Mr. Chairman, thank you for responding to my letter of 
June 6 and holding this hearing on an issue of great importance 
to the Nation and to my native state, South Carolina.
    For almost five years, the Department of Energy has 
proposed to build a mixed oxide or MOX fuel plant at Savannah 
River Site. The plant's purpose is to convert weapons-grade 
plutonium into fuel that can be burned or irradiated in light 
water reactors.
    There are two benefits from this process. First, it 
degrades plutonium into elements that are no longer fissile or 
usable as warhead material. And second, it extracts the energy 
potential from the surplus plutonium.
    Until recently, DOE's plan to build a MOX fuel plant at 
Savannah River Site was matched by parallel facilities in 
Russia. The Russian Federation, with foreign financial 
assistance, was to build a basically similar plant. Each plant 
would process at least 34 metric tons of weapons-grade 
plutonium into mixed oxide fuel, which would then be burned in 
a nuclear reactor.
    The House Energy and Water Appropriators have now decided 
to zero out funding for the MOX fuel program, citing mainly the 
Russians' renunciation of DOE's original proposal, but also 
citing cost growth and technical hurdles.
    So the purpose of our hearing today is to take a thorough, 
close look at the MOX fuel program, assess its progress and 
status, and compare it with other options for the disposal of 
plutonium in light of the action the appropriators have taken.
    To set the stage for our discussion, a little history might 
be useful. In 2002 the state of South Carolina, in an 
arrangement with the Department of Energy and Congress, agreed 
to accept 34 tons of weapons-grade plutonium for MOX 
processing.
    In exchange, the state of South Carolina received 
assurances that the MOX fuel plant would be completed on 
schedule, and those assurances were backed by penalty payments 
of liquidated damages to which the Department of Energy agreed, 
and we entered into statute--that is, if the MOX fuel plant 
construction was delayed beyond a certain date, originally 
2011.
    In concert with this effort, the United States agreed to 
help fund a MOX fuel facility in Russia where the Russians 
would likewise convert 34 tons of weapons-grade plutonium into 
MOX fuel. To most, this seemed like a basically fair deal.
    In the U.S., we would eliminate the expense and risk of 
safeguarding and storing weapons-grade nuclear material. In 
Russia, we would diminish the risk that weapons-grade materials 
might fall into terrorist hands. And for the nuclear power 
industry, we would provide a new source of reactor fuel.
    For the last four years, we have been told by the 
Department of Energy that liability concerns for U.S. 
contractors in Russia were holding up the MOX fuel facility. We 
thought that problem was finally resolved last summer, but 
early this year a more fundamental disagreement came to light.
    In February, the Russians informed the United States that 
they would move forward only if, one, the plutonium fuel could 
be burned in new so-called fast neutron reactors, which could 
raise proliferation concerns of their own, or two, if the 
international community agreed to pay for the entire MOX fuel 
project.
    This development has called into question the non-
proliferation benefits that the U.S. expected from the MOX fuel 
facility. However, in a joint statement with U.S., Russia has 
recently recommitted to dispose of 34 tons of plutonium in a 
method that we jointly agree upon.
    I understand the appropriators' concerns about changes to 
the MOX fuel program recently. These are major changes. But 
without a MOX fuel fabrication plant, South Carolina is going 
to be stuck with tons, up to 34 metric tons, of weapons-grade 
plutonium with no clear pathway for disposal.
    When South Carolina agreed to take the nation's plutonium, 
we did not agree to become the final burial place for that 
plutonium. We took the plutonium on the strength of DOE's 
promise that a fabrication facility was forthcoming. The 
penalty payments imposed on the Department of Energy were our 
assurance that this would happen.
    In the defense authorization bill this year, we took what I 
considered to be sensible steps to account for these new 
circumstances. The committee reaffirmed our conclusion that the 
MOX facility is worth pursuing, even separate of the Russian 
facility if need be.
    The committee also reaffirmed our commitment to the 
construction of a MOX fuel facility in parallel, if possible.
    But the committee fenced off a portion of the MOX fuel 
funds pending a report from the Department of Energy that 
emphatically reaffirms MOX as the preferred technology and the 
most cost-effective means for disposing of weapons-grade 
plutonium.
    The decision by the energy and water appropriators to zero 
out MOX has stepped up the time line for this report, but it 
does not change the issues surrounding the MOX program.
    I am not dogmatic about MOX. If there are other available 
options, and if these are cost-effective, and if they too are 
non-proliferating, I am open to those options. But sunk cost 
has to carry some weight. Over $500 million has been invested 
in the MOX facility already, and environmental impact statement 
(EIS) has been approved. Eighty-five percent of the design work 
on the facility has been completed. Seventy-three acres has 
been graded. The plutonium is stacking up in the K-Reactor, a 
facility that was not specifically designed for that use. This 
should make us all wary of scrapping the idea and starting over 
from scratch.
    Mr. Chairman, in conclusion, I hope that today the 
testimony will give us an opportunity to weigh again the pros 
and the cons of the MOX program, particularly as it compares to 
other options.
    To name just a few questions, I would like for our 
witnesses today to address these questions. How does the life 
cycle cost of the MOX fuel facility compare to other options 
such as immobilization? What technical challenges remain in the 
construction of a MOX fuel plant and, for that matter, 
immobilization or the other options? What is the effect of a 
decision today to delay or discontinue MOX on the schedule for 
plutonium disposition overall? What is the status of 
negotiations with Russia regarding MOX? Is the burning of 
plutonium fuel in fast neutron reactors an acceptable 
alternative with comparable end results? And what alternatives, 
other that MOX fuel and immobilization, are available for 
plutonium disposition, and how do their costs and benefits 
compare?
    Chairman Everett, Ranking Member Reyes, let me thank you 
again for agreeing to hold this hearing, all our witnesses 
today. This is a good hearing, as attested to by the people who 
are here. It is a matter of great importance, and I look 
forward to the testimony and the discussion that follows.
    Thank you very much, sir.
    [The prepared statement of Mr. Spratt can be found in the 
Appendix on page 52.]
    Mr. Everett. And I thank the gentleman and was more than 
glad to arrange this hearing at his request.
    Mr. Bunn, we kind of set the stage, and----
    Mr. Bunn. You sure did.
    Mr. Everett [continuing]. We are ready for you to kick it 
off.

 STATEMENT OF MATTHEW BUNN, SENIOR RESEARCH ASSOCIATE, BELFER 
 CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY 
            SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Bunn. All right. Well, it is an honor to be here today 
to talk about a subject that I do think is important to our 
national security. I have been working on plutonium disposition 
in and out of government since the inception of the program, 
beginning with directing the National Academy of Sciences study 
that laid many of the policy foundations for the U.S. 
disposition effort. I will summarize my written statement and, 
with your permission, I would like to submit that for the 
record.
    Mr. Everett. Your entire statement will be made a part of 
the record.
    Mr. Bunn. As you know, the plutonium disposition program 
has suffered delays, greatly increased costs, shifting 
approaches, and that has raised questions as to whether and how 
we should move forward from here.
    Today I want to make four basic points. First, plutonium 
disposition is not among the top priorities for reducing the 
risk of nuclear theft and terrorism. But second, disposition of 
U.S. and Russian excess plutonium can offer security benefits 
that are worth the effort if and only if the 34 tons of weapons 
plutonium covered by the 2000 agreement is only the first step 
to a disposition of much larger amounts of plutonium. Third, 
Congress should support moving forward with disposition of 
excess weapons plutonium under appropriate conditions. But 
fourth, before providing the billions needed to build major 
facilities for this purpose either in the United States or 
Russia, Congress should ensure that a policy context is put in 
place that will make it possible for plutonium disposition to 
offer benefits that are worth the effort and that important 
technological alternatives are fully considered.
    In short, we should move forward but only if there is 
agreement on a set of policies that will make doing so 
worthwhile, so let me elaborate on those points.
    First, it is important to be clear what it is that the 
objectives are, what it is we are trying to buy with plutonium 
disposition. This effort can contribute to reducing the risk of 
nuclear theft and nuclear terrorism, which I believe is a very 
important U.S. policy objective, and it can contribute to 
ensuring that nuclear arms reductions are difficult and costly 
to reverse, which would strengthen international political 
support for our non-proliferation efforts.
    Also, from the DOE perspective, there is what I call a good 
housekeeping function--that is, helping to reduce the number of 
sites in the U.S. complex where plutonium is stored and the 
costs and risks and political liabilities of storing it.
    As currently planned, however, disposition of excess 
plutonium will have only minor benefits for reducing the risk 
of nuclear theft. The 34 tons of plutonium in Russia that would 
be covered by the agreement are some of the most secure 
plutonium in all of Russia, and the disposition of this 
material is not going to address the biggest risks of nuclear 
theft, which are at small vulnerable facilities with plutonium 
and highly enriched uranium.
    If you applied disposition to a very large fraction of 
Russia's plutonium, that would certainly reduce the risk of 
nuclear theft. But the 34 tons covered by the agreement is less 
than a quarter of the roughly 145 tons of weapons-grade 
plutonium in Russia's stockpile.
    Moreover, as the academy study pointed out, taking this 
material out of secure vaults and processing it and moving it 
around can actually increase the risk of theft unless you apply 
very stringent standards of security throughout, which is why 
we recommended what we called the stored weapons standard, 
protecting it more or less the same way we protect nuclear 
weapons themselves.
    In short, plutonium disposition would be on a comprehensive 
and prioritized list of steps to reduce the risk of nuclear 
theft, but it wouldn't be close to the top of that list.
    Similarly, while disposition of a large fraction of 
Russia's plutonium stockpile would make nuclear arms reductions 
much more difficult and costly to reverse, disposition of 34 
tons of plutonium won't really accomplish that objective. 
Russia would still have over 100 tons of plutonium left over, 
which is enough to support a stockpile of over 20,000 nuclear 
weapons.
    In short, if we want to make substantial national security 
contributions from disposition, we have to do a lot more than 
34 tons.
    From a good housekeeping point of view, that is certainly 
important. In fact, DOE has argued that simply storing all the 
excess plutonium at its current locations would be more costly 
than the quite costly disposition program that DOE proposes.
    But if good housekeeping is the primary driver, then we 
have to be careful about which plutonium has storage that is 
costly and which plutonium has storage that is cheap. Because 
we will be storing reserve pits at Pantex in any case, and 
therefore need all the safety and security measures associated 
with pits in storage at Pantex, the excess material in storage 
at Pantex represents a pretty small net additional cost.
    Now, there are other rationales for plutonium disposition 
as well. In particular, walking away from the 2000 agreement 
and from all of the other negotiations that have taken place 
could potentially call into question the credibility of U.S. 
threat reduction commitments going well beyond plutonium 
disposition itself.
    On the other hand, the PMDA certainly will--that is, the 
plutonium management and disposition agreement--certainly will 
have to be modified in any case, and therefore I don't think we 
need to be absolutely fixed on the specific technologies that 
were identified in that agreement six years ago.
    Now, speaking to technologies, the Academy recommended that 
as a first priority we focus on making sure everything is 
secure, that all stocks of separated plutonium and highly 
enriched uranium worldwide are secure and accounted for. Secure 
storage is clearly an essential first step for every option.
    In terms of long-term disposition, the Academy recommended 
that options be chosen which had four properties. First, that 
they would meet what we called the spent fuel standard--that 
is, making the plutonium about as inaccessible for weapons use 
as the much larger amount of plutonium in commercial spent 
nuclear fuel.
    Second, that on the road to that, they would meet as 
closely as possible the stored weapons standard.
    Third, that they would meet all applicable environment, 
health and safety requirements.
    And fourth, within those constraints, that they be the 
options that can get the job done most rapidly and cost-
effectively.
    The Academy concluded that the options that best met those 
criteria were MOX and immobilization. Advanced reactors and 
fuel cycles are not needed to meet those objectives, and 
therefore the committee recommended that we should neither wait 
for nor pay for advanced reactors to be developed as part of 
plutonium disposition.
    But if they are developed for the purpose of nuclear energy 
and they become available when there is still excess plutonium 
to be dispositioned, by all means, we should consider using 
them for that purpose.
    Now, estimates of various important matters like the cost 
and schedule for different options have changed since then. 
Russia's circumstances, its economy, has changed. Its economy 
and nuclear security have both improved. But I believe the 
fundamental foundation of that framework laid out in the 
Academy's studies remains valid.
    One point I would add is that if we can only get major 
security benefits if we do more than 34 tons, we need to make 
our disposition options be scalable so that they can do more 
than 34 tons.
    Now, in terms of Russian disposition, as you know, Russia 
has--what I would call reemphasizing its previous preference 
rather than a radical change--is that somehow, as it has 
recently been portrayed, that it would rather use the plutonium 
in new reactors rather than existing reactors, new reactors 
that would fit in its version of the future nuclear energy.
    While the total cost of building those new reactors would 
be much higher than using plutonium in existing reactors, 
nonetheless Russia says that it might pay a portion of that 
total cost, and therefore the cost to the United States might 
be similar or smaller.
    But before the United States agrees to support construction 
and operation of the BN-800 fast neutron reactor in particular, 
several policy issues would need to be addressed, I believe. 
Clearly, if you operated it as originally designed, so that it 
is making more weapons-grade plutonium than it is burning, that 
would not support our non-proliferation objectives. Russia 
might be willing to take off what are called the breeder 
blankets around a portion of the reactor, but that would leave, 
of course, the possibility that they could be added back on at 
any time.
    And we would have to consider how much we cared about that 
subject and how much we cared about other subjects such as how 
much it matters that the spent fuel from such a reactor would 
typically be in smaller fuel assemblies with lower radiation 
fields and higher plutonium concentrations than if the 
plutonium had been used in a light water reactor.
    High-temperature gas reactors, another option Russia is 
looking at, don't raise similar policy issues, but they are 
similarly expensive.
    At the same time, we ought to continue to examine other 
options, including reactors outside of Russia where you might 
be able to export some of the plutonium fuel produced in 
Russia.
    I have for years advocated that we should at least look at 
the notion of a plutonium swap. That is, there are ten tons of 
plutonium being burned as MOX every year in Europe. And if we 
simply shipped the U.S. and Russian excess plutonium to Europe, 
and they gave us title--put a U.S. flag and a Russian flag on 
the equivalent amount of civilian plutonium and burn the 
weapons plutonium instead--that would be much the most rapid 
and cheapest way of converting these stockpiles into 
safeguarded stockpiles sitting in Europe rather than 
unsafeguarded stockpiles in Russia.
    I believe we should also restart a joint immobilization 
program with Russia, because I believe Russia probably has, as 
we do, much more plutonium that is unsuitable for use as MOX 
than it has been willing to acknowledge.
    On the U.S. side, I think the two leading options are the 
ones proposed by the Department, as you will hear later, 
involving both MOX and immobilization in tandem for different 
parts of the excess plutonium stockpile, or an all-
immobilization option.
    I think all-immobilization should be seriously considered. 
Indeed, we currently believe that this option would be as 
expensive as doing both, but the previous DOE studies had come 
to the opposite conclusion even before the substantial cost 
growth for the MOX option.
    DOE also believes that there may be a problem with having 
sufficient canisters of high-level waste for putting the 
immobilized plutonium into once a large-scale immobilization 
facility could come online down the road.
    I think there are a variety of options that might be 
considered to address that issue, though I am not--can't by any 
means be certain that it could be fully addressed, those 
options are described in my full statement.
    In the past, Russia has said that it would not carry out 
disposition of its plutonium if we did only immobilization, 
seeing the immobilization as just another form of storage.
    They are wrong that it is just another form of storage. We 
certainly would not spend billions to put our plutonium into a 
form that it would take billions to get it back out of if we 
were really intending to store it for later use in weapons.
    And I believe that if we move to a situation where we are 
supporting an approach that meshes with Russia's long-term 
vision of the nuclear energy future that we may very well have 
a little more flexibility on their side about what options we 
take in the United States. It is at least worth raising the 
question with them if immobilization otherwise looks 
attractive.
    On the other hand, DOE's proposed strategy does have a 
number of benefits. In particular, by having both options in 
parallel, it would probably be easier to scale it to cover more 
than the initial 34 tons covered by the agreement.
    So recommendations: As a first priority, we should do 
everything in our power to ensure that all stockpiles of 
nuclear weapons and the materials to make them worldwide are 
secure and accounted for. We have been doing a lot to do that. 
There is a lot more to be done. We describe that in some detail 
in our recent report, ``Securing the Bomb 2006.''
    Second, DOE should move aggressively to consolidate its 
plutonium and HEU in fewer locations, achieving higher security 
at lower cost and should work with Russia and other countries 
to do the same.
    Third, I believe the United States should adopt the policy 
of seeking deep, transparent and irreversible nuclear arms 
reduction, should seek agreement with Russia to reduce each 
country's total stockpile of assembled nuclear weapons and then 
to reduce the plutonium and HEU stockpiles to the minimum 
needed to support those reduced warhead stockpiles.
    The United States should maintain both a domestic plutonium 
disposition program and support for Russia's plutonium 
disposition program, and funding for the MOX program should not 
be zeroed as proposed in the energy and water bill.
    Fifth, however, the United States should only be prepared 
to invest the billions in construction and operation of the 
relevant facilities if we have adopted a policy of seeking 
irreversible nuclear arms reduction and we are seeking to 
convince Russia to go beyond the initial 34 tons, or, if the 
costs and risks of disposition are, in fact, less than the 
costs and risks of continued storage.
    For disposition of the U.S. plutonium, we should focus on 
hybrid MOX and immobilization options or the all-immobilization 
options. And to help make that choice, Congress should direct 
that DOE provide detailed analyses of the costs, benefits and 
risks of each option which should be subjected to in-depth 
independent peer review.
    For the Russian plutonium, we should continue to focus on a 
degree of linkage--that is, to try to ensure that Russia gets 
rid of roughly similar quantities of plutonium on a roughly 
similar time scale, but there is no need to have it be the same 
technologies as us or exactly the same time that facilities 
start being built and operated.
    We should begin discussions now with Russia on declaring 
additional material excess to our military needs and on making 
sure that stringent standards of security approximating the 
stored weapons standard will be maintained throughout.
    And we should seek an agreed decision on what disposition 
options are going to be implemented with Russia as soon as 
possible.
    We should not support construction and operation of new 
fast neutron reactors until we are convinced that doing so will 
contribute to and not undermine our non-proliferation 
objectives.
    So with that said, my bottom line is we should adopt 
policies that will make it possible for plutonium disposition 
to make a big contribution to our national security, and then 
we should move forward with disposition of a large fraction of 
both the U.S. plutonium stockpile and the Russian plutonium 
stockpile.
    And I apologize for going on so long.
    [The prepared statement of Mr. Bunn can be found in the 
Appendix on page 57.]
    Mr. Everett. Very thorough and very interesting.
    I need to take care of a little housekeeping thing here 
before we start the questioning. And that is, after 
consultation with the minority, I ask unanimous consent that 
Mr. Wilson, Mr. Barrett, Mr. Norwood, any other members that 
may attend the hearing who are not on the committee be 
authorized to ask questions following all questions being asked 
by the members of the committee. So ordered.
    Mr. Bunn, I appreciate your comment that--I want to talk 
about de-linking the projects. I got a little tired, you know, 
three years in. This thing comes up, and comes up, and comes 
up, and the Russians postponing and finding excuses.
    One of the great things about dealing with the Russians--
you can sign an agreement with them and they always find 
``technical reasons'' that they can't fulfill that agreement.
    Having said that, let me--as you know, the House Armed 
Services bill de-links the U.S. MOX project with the Russian 
MOX program. What concerns, if any, do you have about the steps 
we took to de-link the two projects?
    And I think Mr. Spratt and his questions also mentioned 
something about that.
    Mr. Bunn. Well, I think that we should partly de-link. We 
should continue to seek, as I said, that Russia--disposition of 
plutonium on a comparable scale and a comparable time frame to 
what we are doing. But that doesn't mean we have to wait to 
start construction on our end until the Russians move forward.
    We do have reasons within our own complex, the interests of 
the state of South Carolina, and the costs and risks of storing 
plutonium in our own complex, to move forward if we decide that 
MOX is the right way to go.
    So I think that it is worthwhile to be flexible about the 
linkage on the timing of construction of facilities. At the 
same time, if we are pessimistic that Russia is ever going to 
move forward, then I think that raises very serious questions 
as to whether it is worth going ahead and building these quite 
expensive facilities in the United States.
    So those are my thoughts in a nutshell on the linkage 
front. I think we should de-link on the beginning of 
construction. On the technology front, we should de-link there.
    And in fact, I think--although there has been a great deal 
of pessimism caused by the Russian change, I think if we can 
get into a position where we are pushing an option that the 
Russians are actually enthusiastic about, we will be in better 
shape.
    The Russians do move forward on things they care about. It 
is only when we are pushing them to do something that they 
don't really care about doing that we have these kind of 
enormous delays that drag on for years.
    So if we can get them into a position where they actually 
want to do plutonium disposition, we will be money ahead.
    Mr. Everett. Isn't there some feeling that the Russians are 
not excited about moving ahead?
    Mr. Bunn. They are very much not excited about moving ahead 
with plutonium as MOX in their existing light water reactors.
    It is my belief that they are somewhat excited about the 
possibilities for use of plutonium fuel in the longer term 
vision of nuclear energy in the reactors that they are planning 
to build, not only fast neutron reactors but also future light 
water reactors and future high-temperature gas reactors.
    Mr. Everett. I got a little ahead of myself there, but 
prior to that I was going to ask you, subject to your 
statements just a few minutes ago, that you have qualified 
whether or not PMDA is valid to continue with.
    Mr. Bunn. Well, the reality is today the schedules in the 
PMDA are simply not going to be met. We were supposed to be 
starting by about now.
    So the PMDA is going to have to be modified in some way, 
and it will probably, my guess is, have to be modified a bit on 
the technology front as well as on the timing front. And I 
think we should be willing to do that.
    But the underlying structure of the PMDA that both sides 
would carry out disposition of a large chunk of plutonium I 
don't think necessarily does need to be modified.
    I do think that as we focus on the 34 tons that is in the 
PMDA, as I said in my statement, we really need to be thinking 
about going well beyond that, because the security benefits of 
getting rid only of 34 tons and then stopping are really very 
minor.
    Mr. Everett. Thank you very much.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Thank you for your testimony. The disposition method of 
immobilization might take many different forms. How does 
vitrification in glass compare with other forms of 
immobilization such as the use of ceramic rather than glass 
matrix?
    Mr. Bunn. Well, I think you will hear more recent studies 
described by the Administration witnesses at this hearing, but 
there are several ways that one could go forward that have been 
considered for different kinds of plutonium.
    If you were going to do an all-immobilization option, as I 
understand it, it is still DOE's view that the best way to do 
that would be to put the plutonium in ceramic sort of pucks, 
put the pucks in the cans. The cans would then be arrayed 
inside the huge canisters into which molten high-level waste 
glass is poured.
    That would create a form that, in my judgment, does meet 
the spent fuel standard. There are disagreements on that 
subject, but I believe it does. It would be a massive, 
intensely radioactive form. There would be about 28 kilograms 
of plutonium in each of those canisters.
    If they were going to immobilize only that portion of the 
excess plutonium that is not suitable for MOX, then they might 
go a different route. They might put either the plutonium in 
glass in those little cans or maybe even try to just put it 
directly into the molten high-level waste glass.
    I think the option we looked at in the Academy study was 
melting it right in with the high-level waste. There are 
various difficulties with that. Different temperatures involve 
certain of the radioactive species and so on.
    And also, if you have a big melter like you have at the 
defense waste processing facility, and you put a lot of 
plutonium into it, you are liable to have a criticality 
accident with the plutonium settling down to the bottom.
    So there are, I think, greater technical uncertainties 
remaining on immobilization on any of those fronts. I do think 
that from a purely technical sort of how-good-is-the-waste-
product perspective, ceramic is better. But it may be that you 
could go a little bit faster for a small amount of plutonium on 
glass. I defer to my Administration colleagues on that subject.
    I chaired a sort of review panel at Livermore a few years 
ago on ceramic versus glass, and we concluded ceramic was the 
right answer, which was what DOE had concluded at the time.
    I do think it has a few more technical obstacles on the 
immobilization front, but there are some reasons to be 
interested in it as well. It has fewer difficult-to-safeguard 
steps. It has less transport of plutonium that is potentially 
vulnerable to different places.
    I don't think that getting the energy value out of the 
plutonium should be a major driver of our policies. While the 
amount of plutonium we are talking about is big in terms of the 
number of nuclear weapons you can make from it, it is small in 
terms of the future of nuclear energy. It is only enough to 
provide fuel for the world's nuclear reactor fleet for a few 
months.
    And the cost of using that energy is much more than the 
energy is worth, so that plutonium is sort of like really low-
grade oil shale at this point. It has got energy in it, but it 
is costly to get that energy out.
    Mr. Reyes. Mr. Chairman, I don't know how much time I may 
have left without the lights, but----
    Mr. Everett. You are the ranking member. You have got all 
the time you want.
    Mr. Reyes. Actually, the reason I asked, Mr. Chairman, is 
because I was going to yield the rest of my time----
    Mr. Everett. That won't be necessary. We are going to--Mr. 
Spratt is up next.
    Mr. Reyes. Okay. Then I will yield back my time.
    Mr. Everett. Thank you.
    Mr. Spratt.
    Mr. Spratt. Thank you, Mr. Chairman. I will be glad to 
alternate on both sides, though, if you want to go ahead with 
Mr. Thornberry or somebody.
    Mr. Everett. Well, let's see.
    Mr. Schwarz.
    Dr. Schwarz. I would yield to my friend from South 
Carolina.
    Mr. Everett. No, we won't do that, either. No. Non-members 
of the committee are not allowed to ask questions till after 
all members have asked questions.
    Dr. Schwarz. I have no questions at this time.
    Mr. Spratt. Mr. Bunn, thank you for your excellent 
testimony, and you didn't have time to present your entire 
written testimony, but it is a substantial contribution to 
understanding the problem.
    Mr. Bunn. Thank you.
    Mr. Spratt. Wouldn't you admit, however, that 34 tons is a 
pretty good first step out of 145 tons estimated plutonium, 
surplus plutonium? That is 25 percent of it--not bad for a 
first step.
    Mr. Bunn. It is a good first step if it is a first step. My 
concern is that if we focus so much on the 34 tons, political 
leaders around the world being asked to finance various 
facilities and so on--when we get to 34 tons and they sort of 
wipe their hands and walk away and say well, we solved that 
problem. And we won't have solved that problem.
    If we understand that it is a first step, I believe we 
should move forward. If we believe that we are never going to 
go beyond 34 tons, I believe it is not worth the effort to move 
forward.
    Mr. Spratt. But we run the risk of letting the perfect be 
the enemy of the good if we push for more than we can really--
--
    Mr. Bunn. I agree with that. I also think that----
    Mr. Spratt. This agreement was made with the Russians in 
the year 2000. We are now here in the year 2006 still 
struggling to bring it to fruition and get it off the ground.
    Mr. Bunn. I agree with that. My testimony is not that we 
should not begin construction until we have an agreement with 
the Russians. My testimony is that we shouldn't begin 
construction until we have decided that we want to get an 
agreement with the Russians on going beyond 34 tons, including 
going beyond 34 tons for our own stockpile as well.
    Mr. Spratt. If our resort is to some form of immobilization 
with this can in a canister or whatever, the Russians will 
demur to that because they are wedded to this idea of 
extracting the maximum energy potential out of the plutonium.
    So we don't advance in parallel directions, do we, if we--
if we do that, we can indeed set aside and reduce some of our 
surplus plutonium, which I support fully. But we don't get the 
better half of the bargain by getting the Russians to do the 
same thing.
    Mr. Bunn. Clearly, a big part of the purpose of getting rid 
of U.S. excess plutonium is to get the Russians to get rid of 
their excess plutonium. There is no doubt about that.
    And in the past, the Russians have said that they would not 
move forward with the disposition of their excess plutonium if 
we were only immobilizing our plutonium.
    The question I was raising in my testimony is whether if, 
in fact, we were shifting toward a policy of supporting an 
approach to plutonium in Russia that they were enthusiastic 
about, they might well be willing to be a bit more flexible on 
our pursuing an immobilization strategy.
    I don't know that that is true, but I think it is worth at 
least asking the question. So that is my view on that subject.
    Mr. Spratt. With respect to the fast neutron reactor, is 
there some way we can agree with the Russians to use that 
technology for irradiating their surplus plutonium for some 
kind of plutonium fuel, and at the same time protect against 
the application of that reactor as a breeder reactor?
    Mr. Bunn. Yes. I think that is potentially possible.
    Mr. Spratt. Does it require inspections, periodic 
inspections?
    Mr. Bunn. I think as a first step would be getting their 
agreement to take off as many as can be done safely of the 
breeding blankets, so that it is converted from a net producer 
of weapon-grade plutonium to a net burner of weapon-grade 
plutonium.
    The second step, I think, is already in the PMDA, which is 
that they would not reprocess any of that material and recover 
any of that plutonium that was produced until after disposition 
of all of the plutonium covered by the agreement had been 
completed.
    We might want to consider whether to seek with Russia an 
agreement that would go further than that and would say they 
would never add additional breeder blankets to a reactor whose 
construction we have supported or that they would only 
reprocess using proliferation-resistant approaches that didn't 
separate weapons-usable plutonium or something of that nature, 
because fundamentally, the way they see it right now, that 
reactor would ultimately be a plutonium breeder reactor 
supporting a big plutonium fuel economy in Russia.
    And I think there are serious questions as to whether that 
is in the U.S. non-proliferation interest.
    Mr. Spratt. And one of the criteria you specified was that 
the project be scalable. If we are to make this a first step, 
they should be able to scale the fuel conversion plants to 
accommodate and----
    Mr. Bunn. Correct.
    Mr. Spratt [continuing]. To put additional nuclear 
materials down the road. Wouldn't the plant we are talking 
about, the MOX fuel fabrication plant and the plutonium--what 
is it, the plutonium--they chop up the plutonium and makes it--
--
    Mr. Bunn. Plutonium immobilization.
    Mr. Spratt. Yes. Wouldn't that be scalable, all of that?
    Mr. Bunn. Potentially. They are being designed for 
particular capacities, which are based on the 34 tons. But you 
could, for example, keep running them for a longer period of 
time, so as to consume more plutonium.
    Or one thing I have always advocated, at least in the case 
of the Russian facility, is that once you are building a 
plutonium building, which involves a huge amount of sort of 
fixed cost, often adding another room is not a huge net 
addition to the percentage of the total cost.
    And so you might think about whether you want to, you know, 
add more space so that if you wanted to add another fuel 
fabrication line or another immobilization line later that it 
would be less cost than building a whole new building to expand 
that capacity.
    So I think we ought to at least be thinking about options 
for expanding capacity, particularly on the Russian end as we 
move forward.
    Mr. Everett. Mr. Larsen, I am going to make you a deal. I 
have canvassed my side over here of the members of the 
committee, and I can assure you, if you would yield your time 
to Mr. Spratt that you would be next.
    Mr. Spratt. We are taking care of Hanford, you see, by 
taking their waste in, so he owes me one.
    Mr. Everett. Would that be agreeable with you?
    Mr. Spratt. That is okay. I can come back around, Mr. 
Chairman.
    Mr. Everett. All right. All right.
    Mr. Larsen. Actually, Mr. Everett, it was actually my 
intent to yield to Mr. Spratt.
    Mr. Everett. You read my mind.
    Mr. Larsen. If you don't mind. I would much rather enjoy 
listening to Mr. Spratt than me ask questions on this.
    Mr. Spratt. One last question. Mr. Bunn, would you agree 
with the testimony that DOE is about to give that sitting 
still, doing nothing, storing and immobilizing itself is a 
pretty expensive alternative?
    In some respects, storage by itself may be the most 
expensive or immobilization could turn out to be substantially 
more expensive than anybody has estimated, particularly if you 
decide to ceramicize the waste or develop a new and better 
technology for the disposition of it in that form?
    Mr. Bunn. Well, as I said, if you store everything in the 
form it is in now and the places it is in now, it is going to 
be very expensive, and I think it potentially is the most 
expensive of the available options.
    But if your main goal on plutonium disposition is to cut 
back on that expense and to sort of consolidate the number of 
places and the forms of storage and so on, then mostly what you 
are worried about is the various impure forms of plutonium that 
are expensive to store, most of which are headed for an 
immobilization option rather than a MOX option.
    Most of the material that is headed for the MOX option 
under current thinking is in pits at Pantex--not all, but most. 
And the pits at Pantex--we are going to have a lot of pits at 
Pantex anyway, and the net additional cost of storing more pits 
at Pantex is actually fairly modest.
    Mr. Spratt. Thank you very much, sir.
    Thank you, Mr. Chairman.
    Mr. Everett. Thank you.
    And thank you for helping keep the train on track after 
denying Dr. Schwarz his attempt to get Mr. Barrett up first.
    And I would like to yield five minutes to Mr. Wilson, who 
is a member of the House Armed Services Committee but not this 
committee.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Mr. Bunn, thank you very much for being here today.
    Mr. Bunn. Thank you.
    Mr. Wilson. I have the great opportunity of sharing with my 
colleague, Congressman Gresham Barrett, representing the 
physical location of the Savannah River Site. And I am grateful 
to be here with Congressman Charlie Norwood, who represents a 
huge number of constituents that work at the site. And so we, 
indeed, have a keen interest in this issue. I also have a 
unique distinction. I am a former DOE employee who has worked 
at Savannah River Site in a legal capacity.
    I really enjoyed hearing your presentation, reading your 
testimony, and I know that you have worked for many years on 
plutonium disposition. And I look forward to meeting with you 
in the future some time, too, because I have a feeling this 
could be a long-term discussion.
    Mr. Bunn. Unfortunately so.
    Mr. Wilson. It is my view from what I have read, the 
presentations that we have here today, that the MOX is the best 
form of disposition for the American taxpayer.
    I am opposed to the all-immobilization strategy for 
plutonium disposition due to problems that you have cited in 
your testimony. I believe this would result in a dramatic cost 
to the American taxpayer and eliminate the opportunity to 
fulfill the promises of the historic non-proliferation 
agreement that we have made with Russia.
    Critics claim that Russia is not willing to dispose of 
their plutonium, but I believe, and we will hear this from 
Ambassador Brooks, that indeed they may be ready to participate 
and keep the promises that have been made.
    Building this facility sends a clear signal to the 
international community that we are serious about maintaining 
our agreement to dispose of excess plutonium.
    I was very interested in your testimony regarding 
immobilization. There are some on the House Appropriations 
Committee that support an all-immobilization strategy, but 
knowing that--the issues that I see--if we move to all-
immobilization, there is a potential that the state of 
Washington would need to accept most of DOE's excess plutonium 
to perform some, if not all, of the in-canister operations at 
the site currently under construction at Hanford.
    And our good friend, the gentlelady from Washington state, 
Ms. McMorris, certainly would have a keen interest in that. And 
Rick, too. And we want to point out that--the soon-to-be-
married Cathy McMorris, in ten days, and who is counting?
    A pit disassembly and conversion facility would still be 
required to disassemble the course of nuclear weapons and 
convert the resulting plutonium into an oxide form. 
Significantly more high-waste canisters--a new immobilization 
facility would be needed, costing taxpayers millions, possibly 
billions.
    Immobilization of weapons-grade plutonium has never been 
done before, and it is still in a research and development 
stage. MOX is mature, as we have seen in France, accepted 
technology currently being used in over 30 reactors worldwide.
    The taxpayer would be responsible for paying penalties to 
the state of South Carolina as the waste would sit at SRS 
waiting to be immobilized.
    Another problem, at a minimum, 2,100 additional canisters 
would be needed to be inserted into an already oversubscribed 
Yucca Mountain. As to the points that I made, could you 
comment?
    Mr. Bunn. Sure. It is my understanding that current cost 
estimates for an all-immobilization and a MOX-plus-
immobilization strategy are actually quite similar, rather than 
an all-immobilization strategy being much more.
    In the past, DOE's estimates have been that an all-
immobilization strategy would be cheaper, and I think one of 
the things that is worth looking into is exactly why they have 
reversed that conclusion even with the large cost growth that 
has occurred with the MOX plant.
    Now, one could argue plausibly that the large cost growth 
that has happened with the MOX plant would likely happen once 
we got going on the immobilization plan and got past the very 
preliminary designs that exist now for an immobilization plant, 
and I think that is a plausible argument.
    I think there are potentially options for providing 
sufficient waste canisters, but of course the Department of 
Energy folks know a lot more about what they are doing with 
immobilization of waste than I do.
    In particular, while we are now accepting spent nuclear 
fuel from foreign research reactors at the Savannah River 
Site--also at Idaho, and that has been extended to 2019, and 
those contain millions of curies of radioactive waste that 
either will become liquid radioactive waste if those are 
reprocessed or some of it will be volatilized and caught in 
filters if the melt and dilute technology is applied.
    And in either case, that will involve quite a number of 
canisters of high-level waste that will have to be immobilized 
above and beyond the high-level waste that is in the Savannah 
River tanks right now today.
    So I think there is some prospect that would be a potential 
source for additional canisters that would be available once an 
immobilization plant came online. But there is no doubt that 
there are higher technical uncertainties on the immobilization 
front.
    On the other hand, it is a somewhat simpler technology, 
because you are not trying to put it into a reactor which has 
the, you know, immense safety requirements of a nuclear 
reactor.
    So you don't have to have, you know, as fine detail on 
exactly how that plutonium puck--you know, if there is a little 
chip off of it, it doesn't really make that much difference, 
whereas in terms of a pellet of MOX fuel, it makes a big 
difference, and you have got to make each one of them exactly 
right.
    So I actually think that the balance between those options 
is fairly finely balanced in my mind, and that is why I 
recommended that Congress ask the Department for a number of 
analyses of the cost, benefit and risks of each of those 
approaches.
    Mr. Everett. Mr. Barrett, it is your time now.
    Mr. Barrett. Thank you, Mr. Chairman. It was Mr. Schwarz's 
idea, too, by the way, to yield that time to me, Mr. Chairman, 
but I am----
    Mr. Everett. You are not taking the credit for that.
    Mr. Barrett. Thank you so much.
    Mr. Bunn, thank you for being here today. I see that you 
are a senior research associate and not associated with the 
DOE. How close do you work with these guys?
    Mr. Bunn. Once upon a time, I worked much more closely with 
them than I do now. At one time, my program had a small grant 
from the disposition office, and at one time I consulted for 
Bechtel National on their efforts to get a contract for Russian 
plutonium disposition, but neither of those are active anymore, 
so I have no sort of financial dog in this fight.
    Mr. Barrett. Well, the reason I ask--because you made a 
statement, if we decide to go with MOX--if we decide the 
right--if we decide MOX is the right way to go, and I am taken 
aback by that, because we are $1 billion--$1 billion--into the 
MOX program.
    And if you are speaking on the same sheet of music as DOE, 
we got a major problem here.
    Mr. Bunn. No, no. I am an independent analyst sitting at 
Harvard University. I do think, though, that we need to look at 
the costs and risks and benefits of different options going 
forward. Some costs are sunk. We can't get them back.
    Mr. Barrett. Well, let's talk about that. You talk about 
immobilization versus MOX. And you are saying that they are 
very similar as far as the cost goes, and I don't know--and I 
am sure you have got facts and figures to back this up.
    But the facts and figure that I have show just the 
opposite. In fact, the facts and figures that I show on MOX 
actually have the program laid out to show this is the overall 
cost, where, to the best of my knowledge, immobilization has 
not done that.
    And I think when we are looking at the long term also, if 
we are talking about immobilization, sir, are we putting these 
immobilized canisters in Yucca Mountain? If we are, how much 
space is that taking up?
    And if we are talking about interim storage, if we can't 
open one Yucca Mountain, I don't know how you think we are 
going to open up 31 or 32 interim storage sites throughout this 
nation, South Carolina being one of them.
    Mr. Bunn. I for one am not talking about 32 interim spent 
fuel storage sites. I think you are confusing me with Senator 
Domenici and his----
    Mr. Barrett. But you have got to store this stuff somewhere 
if Yucca Mountain is not open, is that not correct, sir?
    Mr. Bunn. That is exactly so, but what I am saying is that 
both the MOX option and the immobilization option result in 
massive, intensely radioactive objects, in one case plutonium 
in high-level waste glass canisters, in the other spent fuel 
from nuclear reactors, both of which are ultimately destined 
for Yucca Mountain. So I don't see a large distinction between 
the two options in that respect.
    I defer to my DOE colleagues as to what their estimates of 
the respective costs are, but it is my belief that they are 
currently fairly similar for an all-immobilization option and--
--
    Mr. Barrett. Have you got----
    Mr. Bunn [continuing]. Plus immobilization option. In the 
past the DOE's official studies have been that an all-
immobilization option would be cheaper.
    Mr. Barrett. Have you got facts and figures to back that 
up? And I would certainly love to take a look at that.
    Mr. Bunn. Sure. Take a look at the----
    Mr. Everett. Let me say to my colleague that it would be 
a--Mr. Anderson will have some charts to show those facts and 
figures.
    Mr. Bunn. Yes. As I say, that is the Department of Energy 
doing the real cost estimates. But you are absolutely right 
that the MOX estimates are much more detailed and are at--
because we have made the investments we have in design and 
getting ready for construction and so on, we are at a point 
where we can make much more detailed cost estimates than are 
yet available for immobilization.
    Mr. Barrett. Let's turn toward fast reactors a little bit. 
I understand there may be some things that we can work with the 
Russians--if they are willing, as flush with cash as they are 
right now, to help pay for these fast reactors, if not fully 
fund them, wouldn't that make sense, if that is the only 
holdup, to kind of work with them through the MOX program to 
make the world safer and move toward--since we have already got 
$1 billion--if you are correct that they are very similar and 
we have already got $1 billion invested in that, wouldn't it 
make sense to move ahead with the MOX?
    Mr. Bunn. Well, it seems to me there is two questions 
there. One is moving ahead with the MOX and the other is moving 
ahead with the fast reactors in Russia.
    My point about fast reactors in Russia was not that we 
should be against them but that we should be careful, because 
the fast reactors as originally designed are designed to make 
more weapon-grade plutonium than you put into them, so that 
wouldn't--I don't see any reason why the United States should 
spend money helping Russia make more weapon-grade plutonium 
than it started with.
    However, I think there are potentially approaches where you 
could get them to take some of those breeder blankets off, 
convert them into net plutonium burners and do a number of 
other things that might potentially be enough to convince us 
that that, in fact, did serve our non-proliferation interests 
and move forward in supporting fast reactors in Russia.
    We don't know yet how much of the cost of those reactors 
Russia is willing to pay. We know they say they are willing to 
pay some, and whether they want us to provide more or less the 
same amount we would have provided for the other reactors, or 
less, or more is still open to discussion.
    Mr. Barrett. I see my time is up.
    Mr. Everett. Mr. Norwood.
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Everett. Let me mention to the members that we are 
probably going to have votes between 4:30 and 4:50, or between 
4:30 and 5 o'clock. I would hope that we could get through the 
second panel.
    Now, I am more than willing to come back and take as much 
time as we need, but I would hate to keep this room full of 
folks here for a series of votes. So I do intend to continue to 
enforce the five-minute rule.
    Mr. Norwood.
    Mr. Norwood. Thank you very much, Mr. Chairman, for 
allowing us to attend your hearing and ask a couple of 
questions.
    Mr. Bunn, let's stay on cost just a minute if we may. You 
said earlier in your testimony that DOE knows more about waste 
than I do. Do you stand by that?
    Mr. Bunn. I absolutely stand by that.
    Mr. Norwood. DOE wants MOX. The White House wants MOX. The 
Senate wants MOX. Most of us in the House do, except one 
chairman. Well, he doesn't know anything about MOX, but he 
doesn't want it.
    I happen to have a pretty good document that shows MOX is 
less expensive than the alternative of just immobilizing. And I 
also--on waste--you mentioned two or three times recently we 
have had an increase in cost for MOX. $1.1 billion? That is not 
an increase in cost. That is good management at DOE finally 
sticking its head above ground. That cost was always the cost. 
It was always the cost for a cold startup from day one. It was 
always a cost for contingency, unknown things that might 
happen.
    That is in every program. We have just not had good enough 
management over the years to put that into programs. But that 
$1.1 billion I think is unfair to say that oh, well, that is a 
new cost, because that same kind of cost applies to any program 
you have, once DOE determines it is going to start applying 
those figures to the cost of things.
    So I think for the record, Mr. Chairman, I need to point 
out maybe MOX is less expensive--at least some people think so, 
and the $1.1 billion isn't necessarily an increase. It is a 
true factor.
    Mr. Bunn. With respect, when we first made these decisions 
to move forward with MOX in the Clinton years, we were 
expecting that that MOX plant would cost about $700 million to 
$800 million, and now the estimate is about $3.5 billion. So in 
my book, that is a noticeable increase.
    Mr. Norwood. Well, with respect, I would say to you if we 
hadn't studied it to damn death, we would have had it done 
before now.
    Any time you have a program that takes that long to get off 
the board, of course there is going to be that kind of increase 
in it, just as is the program that is--you are suggesting maybe 
might be a better alternative, to immobilize everything.
    That is going to cost a lot more than you think, too, if we 
go there, and it is going to take a lot longer.
    You said in one of your statements that part of our purpose 
of getting rid of weapons-grade plutonium was to make sure 
Russia does, too. Now, that is probably right. I am sure we do 
want to get them to get rid of their weapons-grade plutonium.
    If we don't get them to get rid of theirs, do you think we 
ought to just keep ours as it is now?
    Mr. Bunn. I think given the estimated cost of moving 
forward that probably--if they are unwilling to disposition any 
of theirs, or we expect that that will be the case, that 
probably what we ought to do is pursue the least-cost 
alternative, which I believe would probably be to immobilize a 
portion of the plutonium and store the rest.
    Mr. Norwood. So you think we ought to deal with it 
regardless of what Russia does.
    Mr. Bunn. Absolutely.
    Mr. Norwood. So do I, which means this really has--Russia 
has nothing to do with this conversation. We have weapons-grade 
plutonium in my backyard I want something done with. And I 
think most of the Nation feels the same way.
    I also think most of people who have been looking at this 
for a long time--obviously, we have spent $1 billion down there 
trying to get ready for MOX. Somebody must think it is the 
right thing to do, and we ought to move forward and go ahead 
with it.
    Mr. Bunn. To be fair, I was among those who decided that we 
should move forward with MOX in the first place when I was in 
the government.
    Mr. Norwood. Well, that is all right. At least you are 
consistently wrong.
    Let me just point out that you also mention that the energy 
reduced from MOX is not of any value. Now, that is government 
talk. That energy is worth $1 billion. Those of us down there 
in Georgia think that is a little bit of money. There is some 
value to that.
    Mr. Bunn. Well, it is an interesting calculation to say 
that it is worth $1 billion. Getting it costs much more than $1 
billion. So in the net, it is--if you were to give a utility 
ten tons of plutonium today, it would go on the utility's 
liability list.
    Mr. Norwood. I understand, but we have got to get rid of 
this product, and that is one of the ways we can at least get 
rid of about 90 percent of it.
    Do you think it is a good idea to have two Yucca Mountains, 
or do you think we ought to have interim storage all over the 
country?
    Mr. Bunn. Neither.
    Mr. Norwood. Neither. Well, you are proposing two Yucca 
Mountains.
    Mr. Bunn. I am not proposing----
    Mr. Norwood. You are just not saying that.
    Mr. Bunn. I am not proposing two Yucca Mountains.
    Mr. Norwood. Well, you do that----
    Mr. Bunn [continuing]. For the quantity of plutonium 
involved here is an extremely small percentage of the capacity 
of Yucca Mountain.
    And what is more, the latest studies by the Electric Power 
Research Institute and others suggest that the technical 
capacity of Yucca Mountain is far greater than had previously 
been thought, almost certainly more than 250,000 tons heavy 
metal of spent fuel.
    Mr. Everett. Well, I would tell my friend from Georgia, 
your time is expired.
    Mr. Norwood. Mr. Chairman, I am grateful for every second. 
Thank you very much.
    Mr. Everett. And I am grateful to have you here. I like 
your suit, by the way.
    Mr. Bunn, listen, we have had you now in the hot seat for a 
while, and we do appreciate your testimony. It has been good. 
Members will probably have some questions for the record. I 
would ask you to not play by Washington time. I would ask you 
to respond within 30 days.
    Mr. Bunn. Okay.
    Mr. Everett. Thank you.
    Mr. Bunn. Given the conversation so far, I am expecting 
questions for the record.
    Mr. Everett. Okay. And thank you very much.
    Mr. Bunn. Thank you for having me.
    Mr. Everett. And now we will get started with the second 
panel.
    And I would again remind members that I would--if we have 
to come back, we will come back, but I would prefer to not hold 
all these people here in the event that we have a series of 
votes, and I recognize that there will be questions, but we 
will hold to the 5-minute rule. And, Mr. Wilson, please don't 
ask 4.5-minute questions and expect answers.
    Ambassador Brooks, good to see you again. I look forward to 
seeing you again on Sunday and Monday and Tuesday and 
Wednesday, and the floor is yours.

 STATEMENT OF AMBASSADOR LINTON F. BROOKS, UNDER SECRETARY FOR 
 NUCLEAR SECURITY AND ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
           ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Ambassador Brooks. Thank you, sir.
    And I thank the members of the committee for the 
opportunity to discuss our plans to eliminate U.S. and Russian 
surplus weapons plutonium.
    Mr. Everett. Ambassador, let me interrupt you one second 
and tell yourself and Mr. Anderson and Ambassador Guhin, please 
summarize your statement--your complete statements will be made 
a part of the record--because I am kind of serious about not--
--
    Ambassador Brooks. Yes, sir.
    Mr. Everett [continuing]. Making you all wait here an hour 
while we have a series of votes.
    Ambassador Brooks. Yes, sir. I understand. The most 
important summary of my statement is the Administration remains 
firmly committed to the MOX program. Everything else is 
elaboration.
    We spend a lot of money now to guard plutonium. We will 
always spend money to guard plutonium until we transform it 
into a form where it doesn't need to be guarded. And for us, 
burning it in reactors is the most effective way.
    There is a lot changed since the year 2000. You have heard 
about the plutonium disposition agreement. But we believe the 
current approach remains in the national interest. The most 
compelling reason is non-proliferation and prevention of 
terrorism, because the only way you ultimately prevent this 
material from being at risk is to eliminate it.
    As was made clear in the first panel, Russia agreed 
reluctantly in 2000 to allow us to immobilize one-third of this 
but has made it clear as recently as this month that they do 
not believe that immobilization of more than that would meet 
the intent of the agreement.
    It is my judgment that if we were to shift to 
immobilization, which I believe is a bad idea for several 
reasons, that the Russians would almost certainly completely 
reconsider their approach.
    Mr. Anderson will follow me and talk about how this fits 
into our overall domestic strategy, and Ambassador Guhin will 
talk about our diplomatic efforts with Russia. But I do want to 
point out that while it is clear the Russians are interested in 
a different technical approach, they remain committed to 
disposing of plutonium. This was reaffirmed by a statement by 
Secretary of Energy Bodman and Rosatom Director Kiriyenko, 
which I would like to submit formally a copy for the record.
    Mr. Everett. Without objection.
    [The information referred to can be found in the Appendix 
on page 95.]
    Ambassador Brooks. Russia does prefer to focus on advanced 
reactors, and so our experts are working together to identify 
specific technologies now. We hope to have a firm plan by the 
end of the year.
    I would like to depart briefly from my written testimony to 
address the issue of cost. In a 2002 report the Department 
estimated it would cost $1.4 billion for the completion of the 
MOX facility through design and construction.
    That was based on a 1997 conceptual design, and it made two 
assumptions. First, it assumed unconstrained funding--that is, 
we would have the most optimum profile--and second, it assumed 
a four-year construction schedule beginning in 2004.
    It did not include escalation. It did not include 
contingency. And it did not include a number of other things 
that under our procedures need to be included in a truly valid 
total cost.
    The design of our facility is now 85 percent complete. We 
have completed an extensive bottom-up cost and schedule review. 
We have established a total cost for design, construct and 
startup of the MOX facility as $4.7 billion, of which about 
$800 million has already been spent.
    This cost estimate has undergone external independent 
review and it is in the final stages of formal validation under 
our project management process.
    Now, why is this big growth? About $850 million of it is 
due to the complexity of adapting the French technology to use 
weapons plutonium and to meet our safety and security 
requirements.
    Contingency funding, which was not included in the original 
estimate, accounts for another $800 million of the cost 
increase.
    $500 million is due to the funding profile that stretches 
out construction in an undesirable manner. And the rising cost 
of labor and construction materials accounts for another $500 
million.
    A couple of examples. The facility will require enough 
steel for 9,000 sport utility vehicles. The cost of steel has 
increased by 50 percent since 2003. The facility will use the 
same amount of concrete as 72 miles of highway. The cost of 
concrete increased by 15 percent last year.
    The remainder of the cost increase is some costs that were 
erroneously not included in the 2002 report, construction 
management activities and some site infrastructure support 
which, as Mr. Norwood made clear, we were always going to 
spend. We just hadn't included them.
    And we will be ready to move forward with an official cost 
report which, in our system, is a prerequisite for the formal 
start of construction. We are ready to move. Site preparation 
activities are under way.
    We cleared 73 acres of land. We have excavated 80 percent 
of the site. The design, as I said, is 85 percent complete. We 
have authorization from the Nuclear Regulatory Commission to 
begin construction. And we plan to start this fall.
    Implementing our plan is the right thing to do, sir. It 
makes it clear the United States will meet our international 
obligations. It enables us to keep engaging Russia to eliminate 
its own plutonium. It reduces U.S. storage, safeguards and 
security costs. It facilitates the modernization of the nuclear 
complex. And by providing a pathway out of the Savannah River 
for plutonium brought there, it meets our legal and our moral 
obligations to the state of South Carolina.
    I urge the committee and the Congress to continue to 
support this important non-proliferation effort.
    Mr. Chairman, this concludes my statement, and once you 
have heard from my colleagues I will look forward to your 
questions.
    [The prepared statement of Ambassador Brooks can be found 
in the Appendix on page 76.]
    Mr. Everett. Thank you, Mr. Ambassador. I heard every word 
of it, and I appreciate it.
    Mr. Anderson.

 STATEMENT OF CHARLES E. ANDERSON, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY, OFFICE OF ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT 
                           OF ENERGY

    Mr. Anderson. Yes. Good afternoon, Chairman Everett and 
members of the subcommittee. I am a principal deputy assistant 
secretary for environmental management. And primarily for this 
hearing, I am also the chairman of the Nuclear Materials 
Disposition and Consolidation Coordination Committee for the 
Department.
    I am pleased to be here today to discuss the Department's 
strategy for disposition. At this time, I would like to submit 
my full written statement for the record.
    Mr. Everett. Without objection.
    Mr. Anderson. As I have testified to in the past, the 
proper management and disposition of special nuclear materials 
is one of the biggest challenges facing the Department with 
respect to cost, security and the schedule of reducing the 
complex's nuclear materials footprint.
    To provide perspective on the complexity of this situation, 
the Department's nuclear materials inventory includes over 
500,000 separately inventoried items measuring up to thousands 
of tons of material.
    Of primary interest today are the hundreds of tons of 
special nuclear material. While the challenge of reducing the 
special nuclear material storage footprint is complex--you can 
see from the chart here, it is spread across the country--it is 
far outweighed by the benefit provided to the Department and 
the taxpayer.
    More importantly, the disposition of our surplus special 
nuclear material is needed to provide greater national 
security, and it is the right thing to do.
    When I testified in front of this subcommittee in April, I 
explained why the disposition and consolidation of plutonium-
239 was a top priority to the Department and the Nuclear 
Materials Disposition and Consolidation Coordination 
Committee--it would provide several important benefits to the 
Department and the taxpayers.
    The Department has surplus plutonium-239 stored in highly 
secured facilities across the complex which require ultimate 
disposition, or else the Department and the taxpayer continues 
to bear the high cost of securing and protecting this material.
    With disposition in mind as the final fate of this 
material, you can then see how premature decisions on 
consolidation would be inefficient without having a final 
disposition of surplus material identified.
    Consolidation decisions must be informed by disposition 
plans to ensure efficient use of safeguards, storage and 
transportation resources and is why the Department's committee 
is evaluating an integrated disposition strategy.
    We have identified approximately 76 metric tons of surplus 
special nuclear materials, plutonium-239 and highly enriched 
uranium, all of which ultimately need to be dispositioned.
    Mr. Chairman, it is fundamental that these surplus 
materials not programmatically needed be dispositioned and not 
left to be stored indefinitely.
    The Department has developed four primary alternatives on 
how to manage these special nuclear materials. The first would 
be to disposition using the mixed oxide fuel fabrication 
facility, pit disassembly and conversion facility, operation of 
a plutonium vitrification capability, and H-Canyon operations.
    The second would be disposition using a mixed oxide fuel 
fab, pit disassembly, operational plutonium vitrification 
capability, but no H-Canyon operations.
    The third would be disposition by immobilization, which 
will include stabilizing 50 metric tons of surplus plutonium in 
a ceramic matrix.
    And the fourth would be continued storage in current 
locations--in essence, a no-action alternative--option the 
Department would continue to experience high annual operating 
and safeguards and security costs until some future decision 
were to be made on consolidation and/or disposition.
    The Department's currently proposed approach, which 
includes the mixed oxide fuel fabrication and associated 
facilities, plutonium vitrification and H-Canyon operation, 
would enable the conversion of 34 metric tons of weapons 
plutonium into fuel for use in commercial nuclear power 
reactors.
    It would vitrify up to 13 metric tons of non-MOXable 
plutonium for eventual disposal in the geological repository 
and a--of 26 metric tons of uranium and plutonium bearing 
materials with recovery of the uranium, which could be used 
again in the fuel cycle.
    Let me further describe the key components of this 
integrated disposition strategy. Ambassador Brooks has already 
discussed the MOX program in great detail. The other two 
components are H-Canyon and plutonium vitrification.
    First, H-Canyon is a large, heavily shielded aqueous 
chemical separations facility which dissolves spent nuclear 
fuel containing highly enriched uranium, other enriched uranium 
materials and plutonium-bearing materials and chemically 
separates their constituents.
    The facility has been operating almost continuously since 
it was constructed in the early 1950's. H-Canyon is scheduled 
to complete its current processing mission in 2007.
    This is, however, the only remaining production-size 
chemical separation facility in the United States, and as such 
is a valuable asset in the Department's nuclear materials 
disposition and risk reduction efforts.
    Second, the Department is considering vitrification as the 
preferred technology to immobilize non-MOXable plutonium. The 
plutonium vitrification capability is proposed to be located in 
the basement of the former K Reactor facility at Savanna River 
Site where the majority of the non-MOXable plutonium material 
is currently located.
    The facility would provide the capability to vitrify up to 
13 metric tons of plutonium materials that were not--that are 
not suitable into fabrication into MOX fuel due to isotopic or 
other impurities.
    The impure plutonium would be melted with glass frit, 
poured into small cans. The cans of vitrified plutonium would 
then be placed inside larger high-level waste canisters and 
subsequently shipped to the Defense Waste Processing Facility 
where they would be filled with glass containing high-level 
waste.
    Remaining alternatives include variations of processing and 
disposition options, including immobilization of 50 metric 
tons. The Department's preliminary results indicate that cost 
is not a discriminating factor in choosing between these 
disposition options, as shown on this chart.
    I want to emphasize these are preliminary results. They 
have not been thoroughly evaluated. We still have effort to do 
that, but they give an idea of the comparative cost for these 
options.
    There are, however, other discriminating factors. The 
Department has higher confidence in the cost estimates for the 
disposition approach using MOX and associated facilities, 
plutonium vitrification and H-Canyon operation. Storage and 
operating cost of existing facilities are based on actual 
operating cost.
    Furthermore, as mentioned before, the design of the MOX 
facility is 85 percent complete, and its cost estimate is based 
on a recent external independent review, whereas immobilization 
is an immature technology based on conceptual estimates and 
will require years of additional research and development.
    The Department's integrated disposition strategy outlined 
herein provides the most cost-effective, timely means for 
dispositioning inventories and surplus materials that the 
Department maintains today.
    I would point out that these costs are also to-go costs. 
They do not include sunk cost. We have not tried to capture 
that in total life cycle cost here.
    And as a comparison, as we have talked about other cost 
here, the primary proposed alternative would be dispositioning 
76 metric tons of material, both plutonium and uranium, and not 
just the 34 metric tons that is sometimes referred to as an 
alternative.
    Mr. Everett. Mr. Anderson, let me ask you to summarize your 
statement.
    Mr. Anderson. I am almost there.
    Mr. Everett. Oh, good.
    Mr. Anderson. Additionally, the integrated strategy 
maximizes the useful energy of this defense material, returning 
as much as possible to the nuclear fuel cycle.
    This approach will enable the U.S. to achieve its non-
proliferation objective of converting weapons material into a 
form that can no longer be used in a nuclear weapon.
    The Department is making progress on finalizing the 
integrated disposition strategy and completing the necessary 
National Environmental Policy Act analysis to support this 
effort.
    The cornerstone to this strategy is the MOX project. 
Without the MOX facility, the foundation for our disposition 
strategy erodes, setting the Department back years in its 
thinking, technology and decision-making processes while 
eliminating the country's ability to meet non-proliferation 
objectives and eliminating any clear path for near-term 
consolidation.
    This integrated disposition strategy, the three-prong 
approach, is a strategy in which we have the highest confidence 
in our cost estimate. It is a strategy which maximizes energy 
value and provides a clear disposition path for the surplus 
special nuclear materials discussed earlier.
    I thank you for allowing me the opportunity to testify, and 
I am pleased to answer any questions at the completion.
    [The prepared statement of Mr. Anderson can be found in the 
Appendix on page 81.]
    Mr. Everett. Very welcome.
    Mr. Guhin, again, if you can be as brief as possible. Your 
complete testimony will be made a part of the record. And while 
I am giving you a sense of urgency, I do want you to say 
whatever you need to say.

 STATEMENT OF AMBASSADOR MICHAEL GUHIN, U.S. FISSILE MATERIALS 
              NEGOTIATOR, U.S. DEPARTMENT OF STATE

    Ambassador Guhin. Thank you very much, Mr. Chairman, and 
thank you, distinguished members. It is an honor to be here. 
And thank you for accepting my testimony, and I will try to be 
brief.
    I would preface my oral remarks with a bit of background 
that I have had the honor--and I stress the honor--of leading 
the negotiations of the 2000 agreement with Russia on plutonium 
disposition.
    I have had the honor of leading the liability negotiations 
which we saw last July, and also the honor of such negotiations 
as extending the recent extension of the cooperative threat 
reduction agreement with Russia.
    I would make just a few points, then, if I may, in summary. 
First, looking at this from the Department's but also from the 
government's entire perspective, we look at converting this 
most dangerous and most readily usable material as, first and 
foremost, a non-proliferation objective. And that is the 
criterion by which we judge it.
    I would also note that other G-8 countries, several other 
G-8 countries, have supported this goal for over a decade, and 
that the contributions, the financial pledges, from other G-8 
countries now exceed the $400 million pledged by the United 
States earlier.
    Second, I agree with all those who have said negotiations 
with Russia have gone slower than we hoped, and we certainly do 
have some complicated negotiations ahead of us. But I would say 
that we are on a much more promising path than we have been in 
the past.
    I say this for a few simple reasons. One, liability is 
resolved, and I won't go into that in detail, but it is 
resolved in substance, and it will be available by the time it 
is required.
    Two, as has been noted, the sides have now agreed to 
explore paths that are more consistent with Russia's nuclear 
energy strategy. And I would stress that this does two things. 
It allows us to move this from mostly an assistance program to 
a partnership, to much more of a real partnership. And it 
changes the entire negotiating paradigm.
    We are no longer trying to convince Russia of an interest 
in a particular program, but are working with Russia for it to 
identify what is in its interest, and in which it will 
contribute financially, politically, and technically.
    And I think those are very, very promising developments. 
The recent statements by Secretary Bodman and Mr. Kiriyenko 
have been noted. I would also note, however, that the fact that 
this was even referred to in the statement by President Bush 
and President Putin underlines the importance of the 
explorations and the talks that we now have going both in 
policy channels and in technical channels with Russia.
    Finally, in this regard, I would note that our G-8 partners 
have also been impatient, but they have also expressed a 
continuing interest, and we have talked with almost all of them 
over the months, and we stay in dialogue.
    Finally, I would like to address the second question that 
was in the--that I was asked to address, and I would summarize 
it this way, that while we keep our eye on the objective--that 
is, to get Russia--to get Russia to dispose of its excess 
weapon-grade plutonium under sound conditions, we are going to 
have to be flexible, and I say at times quite flexible, on 
Russian time frames.
    To us, decoupling does not mean changing our commitment to 
get Russia in disposition. It does not mean changing our 
efforts to work with Russia. And it certainly doesn't mean any 
lessening of our commitment to the 2000 agreement. But it does 
mean decoupling the time frames and the time schedules for each 
side's program.
    And I would say that from a negotiating standpoint, a long-
term negotiating standpoint, that decoupling these time frames 
is not only highly desirable, I believe it is probably 
essential to achieve the goals that we want to achieve.
    I say that because once these time schedules are coupled, 
it is counterproductive in that it gives Russia undue leverage 
in the entire negotiating process.
    And I would also note in closing that the 2000 agreement, 
having led those negotiations, is deliberately flexible on 
this. It allows each side to adjust its program schedules.
    The program schedules in the attachment to that agreement 
were recognized as not realistic by the negotiators when it was 
finalized, but you had to finalize something to get moving.
    It recognized the time frames could be different between 
the two parties' programs. And it certainly never intended to 
make progress in one program hostage to progress in the other.
    So I firmly believe that the wisdom of not coupling 
specific activities to time frames remains as valid today as it 
did then.
    I believe that our negotiating hand will be made the 
strongest if the United States demonstrates its resolve by 
moving decisively ahead, at the same time that we work with 
Russia to seek to get it to move decisively ahead.
    Mr. Chairman, that summarizes my--I would like to add two 
comments because they have come up very much in the discussion 
today.
    One is I would like to stress the 2000 agreement and the 34 
tons is very much seen as a first step. This was discussed in 
the negotiations as a first step. The 2000 agreement addresses 
the prospect and envisions the prospect that other material 
would be disposed of.
    So I firmly agree with the idea that--and what the 
negotiators agreed--but you had to work out the first step 
before you could take a second step. And that is indeed, I 
think, envisioned. And second, just to clear the air here, 
since I think both DOE and the Department with DOE have talked 
and are exploring with Russia the future reactors it is talking 
about, I would like to make clear that Russia is very careful 
to refer to advanced reactors generally.
    It has not made a commitment to fast reactors. It has not 
made a commitment to advanced light water reactors.
    The idea is that both sides would explore various 
approaches to this and would explore both the technical but 
also very much the policy aspect and policy issues that would 
be associated, for example, with the fast reactor approach.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Guhin can be found in 
the Appendix on page 86.]
    Mr. Everett. Mr. Ambassador, we thank you very much for 
your past service and your achievements along these lines and 
your most--congratulate you on the most recent one on 
liability, and I would make an observation that you are 
certainly an optimist.
    I am at this time going to yield my time to Mr. Spratt.
    Mr. Spratt. Well, thank you very much, Mr. Chairman.
    Just to cut to the essential questions, Mr. Brooks, does 
the Department of Energy still support the MOX fuel application 
plan?
    Ambassador Brooks. Yes, sir.
    Mr. Spratt. As the preferred alternative for disposing of 
excess plutonium?
    Ambassador Brooks. Yes, sir.
    Mr. Spratt. Are you satisfied that a parallel agreement can 
be struck with the Russians which will give you, in the end, 
the functional equivalent? That is, plutonium reduced to a non-
weapons-grade status in essentially the same condition?
    Ambassador Brooks. Yes, with two caveats. One is he has got 
to do it, I don't have to, so it is always easier to--for me to 
say that Ambassador Guhin will do things.
    And second, you know, the history of our dialogue with 
Russia in many areas is these things sometimes take longer, but 
I am absolutely convinced, because it is in their interest, 
too.
    Mr. Spratt. But technically are you satisfied that if they 
go for fast neutron reactor, they will not be actually 
producing more--breeding more plutonium than they are burning?
    Ambassador Brooks. I am absolutely convinced the United 
States wouldn't acquiesce to something that was 
counterproductive, and I think the Russians understand that.
    Mr. Spratt. Can we be assured of it, though?
    Ambassador Brooks. We can be assured at the time, because 
verifying whether a breeder--a breeding blanket is off is 
relatively straightforward. We are going to demonstrate this 
with a small step on an existing reactor called the BN-600.
    I don't want to suggest that this is the solution for 
plutonium disposition, because it is only one-third of a ton a 
year, but it is provided for in the 2000 agreement. We are 
going to go forward with it.
    And it will demonstrate both how we use fast reactor fuel, 
how we verify that there is no breeding, and so, yes, I think 
that is not an issue.
    Mr. Spratt. Do we lose our leverage if we go ahead with 
MOX?
    Ambassador Brooks. I don't think so. There was a time when 
we might have. I don't think we will lose leverage now.
    Mr. Spratt. Mr. Anderson, when you briefed me a few days 
ago on this, you mentioned another time frame instead of a 30-
year time frame for comparing the cost of the various options. 
But since the cost of immobilization is rather constant over 
time, as you go from 30 years to 50 years, that cost recurs 
each year, whereas MOX fuel cost tapers off as the plutonium is 
eventually disposed of.
    Let me show you the--this is 30 years, as I understand it, 
is that correct, 30-year time frame?
    Mr. Anderson. This is the 2035. I actually also have a 
chart here that shows the 50-year, and a point that would be 
made there is that--you people have raised the question about 
well, you know, you are indicating the storage costs being very 
expensive by making it a much longer time period, and I would 
say that that is a range between the earlier chart at 2035, and 
then if we were going to keep it for 50 years or longer. So it 
gives a range, then, that the storage cost continues to go up 
the longer you keep that.
    Mr. Spratt. Whereas the MOX fuel cost continues to come 
down over time, so that at about 2030 it is basically----
    Mr. Anderson. These are the life cycle costs. That would be 
the completed cost, then, before the 2035 time frame for the 
MOX--the two options of MOX or the cost for immobilization.
    Mr. Spratt. So if you run out the cost over a 50-year 
period of time, the cost of storage only is about 50 percent 
more than the cost of the MOX and H-Canyon----
    Mr. Anderson. For these preliminary numbers, that would be 
correct.
    Mr. Spratt. All right. Thank you very much.
    Mr. Everett. Mr. Reyes.
    Mr. Reyes. I have no questions.
    Mr. Everett. No questions, good.
    Mr. Larsen.
    Mr. Larsen. Just one question for Mr. Anderson--actually, 
two questions, but they are both very short.
    The plans for disposition of plutonium currently stored at 
Hanford Site in Washington state is what?
    Mr. Anderson. I am sorry, could you repeat the----
    Mr. Larsen. What are the plans for disposition of plutonium 
currently stored at the Hanford Site in Washington state?
    Mr. Anderson. The up to 13 metric tons would be included in 
the disposition for that--I mean, it is part of that material.
    Mr. Larsen. The second question I have is given the 
experience in Washington state at Hanford with regards to the 
development and construction of everything there, but certainly 
the vitrification plant, which I know is for high-level waste--
it is not necessarily for the plutonium. Is there a lesson that 
we can learn from our experience in Washington state with the 
vit plant that is going to be applied if we move forward on 
immobilization as a part of the final disposition of plutonium?
    Mr. Anderson. Actually, a series of those lessons have 
already been applied into the external independent review and 
the cost estimate that Ambassador Brooks referred to with the 
MOX, so that is factored in there from the lessons that we have 
learned from the waste treatment plant. They have not been 
factored into the immobilization project as it is a much 
earlier design at this point.
    Mr. Larsen. Okay. I may follow up with you on that, and I 
appreciate that.
    Thank you.
    Mr. Everett. Thank you.
    Let me briefly recognize Mr. Spratt for another question.
    Mr. Spratt. Just two quick follow-up questions. Liquidated 
damages to the state of South Carolina if the project is 
terminated--what would the damages be?
    And second, do you have any estimate of what the damages 
would be for termination for convenience of the government of 
the existing MOX contract with the contractor?
    Ambassador Brooks. The second question I will have to 
provide for the record because I simply don't remember. We will 
come to a point with South Carolina where we would be obligated 
to pay up to $100 million a year.
    The law gives us an alternative which is to remove an 
amount of material equivalent to that which we brought in, and 
I suspect that is the approach we would take, although it is a 
stupid use of government money, to be blunt.
    But if this project were canceled as a result of 
congressional action, then I think that we would look at what 
our alternatives were in terms of removing material, but that 
obviously--that moves the problem. It doesn't solve the 
problem.
    But the damages to South Carolina under the law kick in in 
a little while, and they are up to $100 million, and I don't 
remember there is an end point to that.
    [The information referred to can be found in the Appendix 
beginning on page 110.]
    Mr. Spratt. Mr. Chairman, I would ask unanimous consent to 
offer for the record a document entitled ``Strategy for 
Disposing of the Surplus of Special Nuclear Materials'', which 
is a good review of this prepared by the Department.
    Mr. Everett. Without objection.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Norwood.
    Mr. Norwood. Mr. Chairman, I will be very brief, just ask a 
couple of questions.
    Could staff put the 30-year cost comparison chart back up, 
please?
    Mr. Anderson, while they are doing that, let me ask you a 
couple of questions. We have already spent about $1 billion on 
MOX. Am I seeing that right?
    Mr. Anderson. That is correct.
    Mr. Norwood. Does that them come off the line up there?
    Mr. Anderson. No, sir. That is not included in those costs. 
These are truly to-go costs from this point forward.
    Mr. Norwood. So the $1 billion is already up there in that, 
then?
    Mr. Anderson. Any of the costs--no.
    Mr. Norwood. Will it come down--in other words, we have 
already spent that, so is that $1 billion less?
    Mr. Anderson. No, sir.
    Mr. Norwood. No, okay. All right. The cost of the storage 
and doing immobilization is going to take--if it works, would 
take much longer. That means there is going to be a lot more 
cost associated with that. Does that come off that line?
    Mr. Anderson. All of the to-go costs are included in these 
charts here. None of the sunk costs, whether it is on 
immobilization or anything else--so it is----
    Mr. Norwood. So in fact, the taxpayer would pay more if we 
went the other way than actually those charts indicate, because 
we would be spending a lot of money for storage and all that 
kind of thing.
    Mr. Anderson. Well, the storage cost would, again, depend 
on how long--even though they are less per year, you know, in 
the near term, they are a lot longer. You still don't have a 
disposition path.
    Mr. Norwood. I can't see the number of immobilization, but 
does that number actually include that amount of money that we 
would spend to the point where we could immobilize anything, if 
we ever could, storage costs too?
    Mr. Anderson. Yes. Based on our current estimates that we 
have. And I would point out again--you know, in my testimony--
these are very preliminary estimates, and they are for 
comparative purposes only at this point.
    There are risks associated more with immobilization and 
those things that we have less design and engineering for than, 
for instance, either MOX, which we have 85 percent design for 
now, or for an H-Canyon operation where we actually have 
operating costs.
    And in those cases, then, the numbers that are included 
there have a better certainty to them.
    Mr. Norwood. Last, do you think that the energy value of 
MOX is zero?
    Mr. Anderson. No, sir, and that is factored, you know, into 
these----
    Mr. Norwood. That is also factored into that?
    Mr. Anderson. That is correct.
    Mr. Norwood. In other words, the $1 billion you could sell 
of the fuel is--reduces, then, in my mind what actually MOX 
would have cost otherwise?
    Mr. Anderson. That is correct.
    Mr. Norwood. Well, Mr. Ambassador Brooks, where is this 
immobilization coming from? I mean, the last time I was looking 
at this, we were standing on a site that we had cleared and 
paid for in order to get ready to build a MOX fuel plant. And 
then out of the blue, this immobilization comes up. What is 
going on with this?
    Ambassador Brooks. First off, it is not coming from us, 
sir. It is an idea that comes from some in Congress, the House 
Appropriations----
    Mr. Norwood. Scientists in Congress have come up with this? 
Or is it engineers in Congress who have come up with this? We 
appreciate----
    Ambassador Brooks. I think I would just as soon not 
characterize it. This is----
    Mr. Norwood. I am just trying to figure out--where did it 
come from, after we have spent $1 billion and we have cleared 
the ground to do what we need to do, something I have been 
interested in for at least ten years, and now all of a sudden 
somebody says woah, this immobilization is the greatest thing 
since snuff.
    Ambassador Brooks. I think that there was a time when it 
looked like immobilization was less expensive. Mr. Larsen asked 
about the lessons we have learned at Hanford. One lesson we 
learned at Hanford is when you do something you have never done 
before, with the very best will in the world, it often ends up 
costing more than you thought.
    And so one of the concerns that I have is we are, to some 
extent, comparing apples and carburetors when we compare the 
MOX cost, which has been very heavily scrubbed and is based on 
a plant that exists, with large-scale immobilization, which 
hasn't.
    That doesn't mean that those numbers are wrong. They are 
the best numbers we know. But we would be unwise, in my view, 
to assume vast savings to the taxpayer by going to 
immobilization, because somebody else will be sitting here in 
front of you all and going through all the cost increases that 
I went through on immobilization, not the least of which is 
simply the question of escalation, because it happens later.
    Mr. Everett. I think that probably was the last question 
and also the last answer. I think we have got seven minutes to 
get to the floor, and I don't have a scooter, Charlie.
    And first of all, Mr. Bunn, thank you for being here. I 
think we have actually had a very good hearing.
    Ambassador Brooks, Ambassador Guhin, thank you.
    Mr. Anderson, thank you.
    Let me just, in closing, say that, Mr. Ambassador, best of 
luck. I still think you are a great optimist, and that has paid 
off, although it has taken several years to do so.
    And I would hope that we very much look at de-linking at 
least moving on the Savannah River, rather than waiting till 
the Russians make up their mind, because they always find 
technical reasons why they can't move forward.
    So thank you all for coming. The hearing is closed. Thank 
you.
    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             July 26, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 26, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3597.001
    
    [GRAPHIC] [TIFF OMITTED] T3597.002
    
    [GRAPHIC] [TIFF OMITTED] T3597.003
    
    [GRAPHIC] [TIFF OMITTED] T3597.004
    
    [GRAPHIC] [TIFF OMITTED] T3597.005
    
    [GRAPHIC] [TIFF OMITTED] T3597.006
    
    [GRAPHIC] [TIFF OMITTED] T3597.007
    
    [GRAPHIC] [TIFF OMITTED] T3597.008
    
    [GRAPHIC] [TIFF OMITTED] T3597.009
    
    [GRAPHIC] [TIFF OMITTED] T3597.010
    
    [GRAPHIC] [TIFF OMITTED] T3597.011
    
    [GRAPHIC] [TIFF OMITTED] T3597.012
    
    [GRAPHIC] [TIFF OMITTED] T3597.013
    
    [GRAPHIC] [TIFF OMITTED] T3597.014
    
    [GRAPHIC] [TIFF OMITTED] T3597.015
    
    [GRAPHIC] [TIFF OMITTED] T3597.016
    
    [GRAPHIC] [TIFF OMITTED] T3597.017
    
    [GRAPHIC] [TIFF OMITTED] T3597.018
    
    [GRAPHIC] [TIFF OMITTED] T3597.019
    
    [GRAPHIC] [TIFF OMITTED] T3597.020
    
    [GRAPHIC] [TIFF OMITTED] T3597.021
    
    [GRAPHIC] [TIFF OMITTED] T3597.022
    
    [GRAPHIC] [TIFF OMITTED] T3597.023
    
    [GRAPHIC] [TIFF OMITTED] T3597.024
    
    [GRAPHIC] [TIFF OMITTED] T3597.025
    
    [GRAPHIC] [TIFF OMITTED] T3597.026
    
    [GRAPHIC] [TIFF OMITTED] T3597.027
    
    [GRAPHIC] [TIFF OMITTED] T3597.028
    
    [GRAPHIC] [TIFF OMITTED] T3597.029
    
    [GRAPHIC] [TIFF OMITTED] T3597.030
    
    [GRAPHIC] [TIFF OMITTED] T3597.031
    
    [GRAPHIC] [TIFF OMITTED] T3597.032
    
    [GRAPHIC] [TIFF OMITTED] T3597.033
    
    [GRAPHIC] [TIFF OMITTED] T3597.034
    
    [GRAPHIC] [TIFF OMITTED] T3597.035
    
    [GRAPHIC] [TIFF OMITTED] T3597.036
    
    [GRAPHIC] [TIFF OMITTED] T3597.037
    
    [GRAPHIC] [TIFF OMITTED] T3597.038
    
    [GRAPHIC] [TIFF OMITTED] T3597.039
    
    [GRAPHIC] [TIFF OMITTED] T3597.040
    
    [GRAPHIC] [TIFF OMITTED] T3597.041
    
    [GRAPHIC] [TIFF OMITTED] T3597.042
    
    [GRAPHIC] [TIFF OMITTED] T3597.043
    
    [GRAPHIC] [TIFF OMITTED] T3597.044
    
    [GRAPHIC] [TIFF OMITTED] T3597.045
    
    [GRAPHIC] [TIFF OMITTED] T3597.046
    
    [GRAPHIC] [TIFF OMITTED] T3597.047
    
    [GRAPHIC] [TIFF OMITTED] T3597.048
    
    [GRAPHIC] [TIFF OMITTED] T3597.049
    
    [GRAPHIC] [TIFF OMITTED] T3597.050
    
    [GRAPHIC] [TIFF OMITTED] T3597.051
    
    [GRAPHIC] [TIFF OMITTED] T3597.052
    
    [GRAPHIC] [TIFF OMITTED] T3597.053
    
    [GRAPHIC] [TIFF OMITTED] T3597.054
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 26, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3597.055
    
    [GRAPHIC] [TIFF OMITTED] T3597.056
    
    [GRAPHIC] [TIFF OMITTED] T3597.057
    
    [GRAPHIC] [TIFF OMITTED] T3597.058
    
    [GRAPHIC] [TIFF OMITTED] T3597.059
    
    [GRAPHIC] [TIFF OMITTED] T3597.060
    
    [GRAPHIC] [TIFF OMITTED] T3597.061
    
    [GRAPHIC] [TIFF OMITTED] T3597.062
    
    [GRAPHIC] [TIFF OMITTED] T3597.063
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             July 26, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. According to the 1994 National Academy of Sciences 
study, the disposition method of immobilization was still in need of 
substantial research and development.
    a. Has any progress been made since the 1994 study in the area of 
R&D for immobilization of plutonium?
    Mr. Bunn. Yes. DOE made substantial progress in immobilization R&D 
before the Office of Fissile Materials Disposition terminated their 
effort. A variety of potential immobilization forms were considered, 
ending with the principal focus on the ``can-in-canister'' concept. In 
that concept, plutonium would be immobilized in ceramic pucks, which 
would be placed in cans, with the cans arrayed inside a canister that 
would be filled with high-level waste (HLW) glass, so that the final 
form would be an intensely radioactive HLW canister with immobilized 
plutonium embedded within it. Processes for carrying out this 
immobilization were designed and demonstrated, and conceptual designs 
and cost estimates were developed. The Office of Environmental 
Management has started some work of its own on immobilization, to 
address the impure plutonium for which it has responsibility, focusing 
on homogeneous immobilization of both plutonium and HLW in glass waste 
forms. Immobilization of plutonium remains somewhat less 
technologically mature than the MOX approach, but the difficulties of 
immobilization are more modest, since the immobilized forms do not 
require the kind of exactness and performance needed for nuclear 
reactor fuel.
    Mr. Everett. b. How much R&D would be required today to implement 
vitrification as a primary method for U.S. domestic stores of 
plutonium?
    Mr. Bunn. When the immobilization R&D program was terminated, an 
immobilization process had been developed and a conceptual design of an 
immobilization plant had been done. ``Hot'' testing combining both 
plutonium and HLW remained to be done. As of the FY 2001 budget 
request, DOE expected that physical construction of an immobilization 
plant at Savannah River could begin in the last quarter of FY 2003, and 
be completed in FY 2007--only one year behind the expectations at that 
time for the MOX facility. This suggests that DOE assessed at that time 
that only a modest amount of R&D work remained to be done. Arguably, 
however, the cost growth and delays that tend to occur as a program 
moves from conceptual design to full design and construction have 
already largely occurred for the MOX program, but have not yet occurred 
for immobilization; it may well be that the estimated cost and schedule 
for immobilization would increase if the program were reinstated and 
moved toward full construction.
    Mr. Everett. c. What are the biggest technical challenges remaining 
in the development of immobilization technology?
    Mr. Bunn. As noted above, for the can-in-canister approach, most of 
the fundamental technical issues have been addressed, though further 
testing is still required and might surface additional issues. The 
biggest technical challenges are in the real engineering and 
construction of full-scale facilities. Homogeneous approaches may be 
somewhat less mature. A National Academy of Sciences review did raise 
questions about how difficult it would be for adversaries to recover 
plutonium from the can-in-canister form; resolving these questions, if 
judged essential, would require a modest amount of additional testing.
    There is a significant practical challenge that faces both options, 
if they are to be applied to the entire U.S. stockpile of excess 
plutonium, and that is the availability of sufficient HLW to be 
immobilized with the plutonium. If immobilization of HLW proceeds at 
Savannah River as DOE hopes, and immobilization of plutonium takes as 
long to begin as DOE expects, there will not be enough HLW remaining at 
Savannah River for immobilization of the entire stockpile of U.S. 
plutonium. This could be addressed in a variety of ways. DOE could 
examine options including a modest delay of HLW immobilization at 
Savannah River; building plutonium immobilization facilities at Hanford 
rather than Savannah River, to take advantage of the HLW immobilization 
planned there; and whether Cs-137 capsules in storage could be made 
available safely and in sufficient quantity to supplement the available 
radiation barrier for immobilization. In addition, if DOE decides to 
reprocess the research reactor fuels now being returned from abroad, 
this will result in a significant additional amount of HLW which could 
be immobilized with the plutonium.
    Mr. Everett. Were there any options besides immobilization and MOX 
that were considered? Why were they rejected as less promising by the 
NAS?
    Mr. Bunn. The NAS report Management and Disposition of Excess 
Weapons Plutonium considered a wide array of options for disposition of 
excess weapons plutonium, including a variety of advanced reactors and 
a wide range of disposal options, from launching the material into 
space to burying it in deep boreholes to diluting it in the ocean. The 
committee recommended that options be pursued which could transform the 
plutonium into forms that posed no more security risk than the much 
larger quantity of plutonium that already exists in spent fuel from 
commercial power reactors; could do so while meeting very high 
standards of security, complying with all applicable environment, 
safety, and health regulations, and without imposing substantial 
additional environmental burdens; could do so reasonably quickly and 
with reasonably high confidence; and, within those constraints, could 
do so at the lowest cost. All of the options examined raised issues and 
potential difficulties. The committee concluded that the options with 
the least substantial drawbacks were use of the plutonium as MOX in 
reactors that already exist, and immobilization of the plutonium with 
high-level wastes.
    Mr. Everett. The disposition method of immobilization might take 
many different forms. How does vitrification compare with other forms 
of immobilization, both technically (such as use of a ceramic rather 
than glass matrix) and practically (such as quantities and forms of 
plutonium to which it could be applied)?
    Mr. Bunn. DOE has examined a variety of forms of immobilization, 
including (a) homogeneous vitrification, with both plutonium and HLW 
mixed together in a glass matrix; (b) homogeneous immobilization in 
ceramic, with both plutonium and HLW mixed together in a ceramic 
matrix; (c) ceramic ``can-in-canister,'' in which the plutonium would 
be immobilized in ceramic pucks, which would be placed in cans inside 
large canisters of glass containing HLW; and (d) glass can-in-canister, 
in which the plutonium is immobilized in glass cans, which are arrayed 
inside the HLW canisters. Ceramic can-in-canister approaches have 
significant advantages if all of the excess plutonium is to be 
immobilized, as the ceramic forms are projected to have excellent long-
term repository performance; the immobilization process can be designed 
specifically for plutonium, without the complication of having to also 
be applicable to a wide range of fission products in HLW; and the 
process need not significantly interfere with ongoing immobilization of 
HLW. As noted earlier, however, questions have been raised about 
whether adversaries might be able to remove the cans from the canisters 
and then recover the plutonium from the HLW-free pucks somewhat more 
easily than they could recover plutonium from spent fuel (though in 
general the chemical process for recovery of plutonium from the ceramic 
forms would be somewhat more challenging for adversaries than the 
process for recovering plutonium from glass). Vitrification may have 
some advantages for immobilizing a modest portion of the total 
plutonium in the DOE inventory, as it is conceivable that existing 
facilities at Savannah River could be used for this moderate-scale 
immobilization. Homogeneous immobilization of plutonium with HLW, 
however, is somewhat less technically mature than the can-in-canister 
approach. In my judgment, it is likely that any of these approaches 
could be developed into an acceptable approach for disposition of 
excess plutonium.
    Mr. Everett. The disposition method of immobilization might take 
many different forms. How does vitrification compare with other forms 
of immobilization, both technically (such as use of ceramic rather than 
glass matrix) and practically (such as quantities and forms of 
plutonium which it could be applied)?
    Mr. Anderson. Ceramic and glass are both material forms that can be 
used to stabilize, or ``immobilize'' plutonium to make it into a form 
suitable for disposal in a geologic repository. Both immobilization 
methods have technical advantages and disadvantages. To immobilize 
smaller quantities (6-13MT) of highly impure, non-MOXable plutonium, 
glass vitrification is the more suitable option. Correspondingly, 
ceramic immobilization would most likely be the more suitable option 
for the disposition of the entire inventory (approximately 50 MT) of 
surplus plutonium for disposal as waste.
    Vitrification using a lanthanide borosilicate glass has recently 
been identified as the preferred technology to immobilize 6-13MT of 
plutonium not suitable for use as MOX fuel. Vitrification is more 
tolerant of variations in feed material when compared to the ceramic 
process. During ceramic processing, consistency would be achieved by 
controlling feed material inventory and pre-blending pure and impure 
plutonium. Given the uncertainties with how much pure and impure 
plutonium will be processed and the quality of the existing material 
characterization data, vitrification technology is preferred. The 
principal technical risk identified with vitrification ten years ago 
when ceramic immobilization was favored was design and operation of a 
reliable melter. Subsequent follow-on development efforts for 
vitrification have mitigated that risk. Furthermore, the infrastructure 
supporting the ceramic technology for plutonium disposition was 
dismantled following cancellation in 2002 of the ceramic immobilization 
disposition strategy, while the DOE infrastructure for glass 
vitrification technology continues today (for example, Defense Waste 
Processing Facility, Waste Treatment Plant).
    Conversely, if the Department chose to immobilize the entire 
inventory of surplus plutonium (approximately 50 metric tons), there 
would be sufficient inventory of pure plutonium to enable achievement 
of the appropriate consistency through the blending process. Ceramic 
immobilization could contain as much as twice the amount of plutonium 
per unit volume as glass, and therefore result in fewer containers of 
immobilized waste. In addition, if the Department were to proceed with 
immobilization of the entire inventory of surplus plutonium, the 
infrastructure associated with developing the ceramic technology would 
need to be reinstated, and research and development would be 
reinitiated.
    Mr. Everett. The Department is currently pursuing a three-pronged 
approach to plutonium disposition: MOX for 34 metric tons, H Canyon 
processing for 2 metric tons, and vitrification for the remaining 6-13 
metric tons of non-MOXable plutonium. Could vitrification as planned be 
used to immobilize all of the Departments' excess plutonium? Would it 
be a more cost-effective approach to pursue a single disposition method 
such as vitrification for all excess plutonium?
    Mr. Anderson. If the Department were directed to divert from its 
current plan and immobilize the entire inventory of surplus plutonium, 
glass vitrification would most likely not be the preferred technology. 
Additionally, the Pit Disassembly and Conversion Facility would be 
needed to convert plutonium from pits into an oxide to prepare it for 
immobilization, regardless of the technology chosen. The Department is 
developing a cost comparison of special nuclear materials (Pu and HEU) 
disposition alternatives whose preliminary results indicate 
immobilization using ceramic is comparable in cost to the currently 
planned three-pronged approach. The Department has a higher confidence 
in the estimate for the three-pronged approach versus immobilization, 
which is based on an updated estimate of the Plutonium Immobilization 
Plant that was cancelled in 2002 upon completion of conceptual design 
only. Conversely, the currently planned three-prong approach is based 
on historical operating costs for H Canyon, and design that is almost 
completed for the MOX facility.
    Mr. Everett. Liability issues that had stalled Russian action 
towards plutonium disposition were resolved in negotiations in July 
2005, but as of August 2006 a final liability resolution had yet to be 
signed. What has delayed signing of the final liability agreement for 
the past year? When do you expect the final liability agreement will be 
signed?
    Ambassador Guhin. I am pleased to confirm, as announced by the 
Departments of State and Energy, that the liability protocol for 
plutonium disposition was signed by the United States and Russia on 
September 15. A number of factors appear to have prolonged Russian 
consideration of the text negotiated in July 2005. It required wide 
interagency and highest-level review in the Russian Government, and the 
meticulously crafted formulations required additional time to conform 
precisely into Russian. Moreover, Russia had suggested that it saw no 
programmatic urgency pending definition of its program and U.S.-Russian 
agreement on areas of cooperation. Talks on these are actively 
underway.
    Mr. Everett. Today, how are Russia's views on the acceptability of 
vitrification as a disposition method for plutonium similar to or 
different from those of the U.S.? How should consideration of Russia's 
views affect U.S. decisions on domestic plutonium disposition pathways? 
Would you anticipate any potential diplomatic drawbacks should the U.S. 
change the domestic plutonium disposition path from MOX to 
immobilization?
    Ambassador Guhin. Russia has consistently, since the mid-1990's, 
opposed vitrification as a disposition method for any Russian plutonium 
to be disposed under its program. Also, in negotiations of the 2000 
Agreement, the Russian side opposed the United States utilizing 
vitrification for more than a quarter of its obligation since the 
weapon-grade plutonium itself would not be degraded. We do not believe 
Russia has changed its positions on these matters.
    As a general rule, each country should make decisions on what 
disposition course is best for it to pursue on their own merits. 
However, such decisions should take into account the broad picture, 
including especially in this instance the non-proliferation benefits of 
converting Russian excess weapons plutonium into proliferation-
resistant forms.
    Having pursued a plutonium disposition approach based largely on 
MOX for more than half a decade, a shift in the U.S. position from MOX 
to all immobilization would likely have significant diplomatic 
drawbacks. It would present a new set of problems for Russia, putting 
at risk this critical non-proliferation project itself. It could also 
signal to other G-8 supporters a lack of U.S. resolve and 
determination. I would defer to DOE for the technical and programmatic 
issues associated with immobilization.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SPRATT

    Mr. Spratt. How much money has been spent to date on the MOX 
program? (i.e. what are the sunk costs?)
    Ambassador Brooks. The Department has spent approximately $700 
million on the design of the U.S. MOX facility and site preparation 
activities as of July 31, 2006.
    Mr. Spratt. How much money is available unexpended in the MOX 
account currently?
    Ambassador Brooks. As of July 31, 2006, approximately $500 million 
is unobligated, and we expect to obligate an additional $215 million by 
the end of FY 2006. However, to support starting construction of the 
MOX facility in 2006 and to continue the construction effort we will 
need all of the FY 2006 unobligated balances as well as the requested 
FY 2007 construction funding. We expect to obligate all prior year 
funding in FY 2007 and do not expect to carry over any unobligated 
balances into FY 2008.
    Mr. Spratt. (a) What would the termination costs be if the MOX 
program were discontinued?
    Ambassador Brooks. Both the prime contract between the Department 
and the MOX contractor, Duke Cogema Stone & Webster (DCS), and the 
subcontract between DCS and Duke Power contain the mandatory Federal 
Acquisition Regulation clause on Termination for Convenience (FAR 
52.249-6). The clause provides for payment of all allowable and 
allocable costs incurred by the contractor and subcontractor as a 
result of the termination, up to the date of termination. These may 
include severance costs, subcontract termination costs, and associated 
administrative costs. Termination of the prime contract between the 
Department and DCS would likely result in substantial termination 
costs, due to the large number of employees working on the contract; 
however, termination of the subcontract would not likely result in 
substantial costs.
    Although the standard termination clause does not provide for 
liquidated damages, the subcontract between DCS and Duke Power does 
provide for liquidated damages to be paid by DCS if delivery of the MOX 
fuel is delayed beyond 2007. The amount to be paid to Duke Power is 
based on the value of lost fuel savings, because Duke would need to 
procure other fuel under contracts with shorter-than-usual lead times 
or on the spot market.
    Mr. Spratt. (b) It is my understanding that Russia prefers to 
dispose of its 34 tons of plutonium using so-called ``fast reactors.'' 
Are there any proliferation concerns associated with these fast 
reactors? What drawbacks are there from Russia's use of fast reactors 
to dispose of plutonium as compared with light water reactors as was 
originally planned?
    Ambassador Brooks. The Russian Government has not yet made a final 
decision on the types of reactors it will use for its plutonium 
disposition program. However, if the Russian Government chooses to use 
fast reactors rather than light water reactors for plutonium 
disposition, we do not see any proliferation concerns as long as these 
reactors are configured as burners rather than breeders of plutonium. 
In fact, fast reactors (configured as burners) are capable of consuming 
more plutonium more quickly than light water reactors, therefore 
achieving a greater non-proliferation benefit. We are working with 
Russia to convert the BN-600 fast reactor from a breeder to a burner of 
plutonium, which will allow it to be used to begin disposing of a small 
quantity of Russia's plutonium several years ahead of the U.S. program.
    Mr. Spratt. What is the expected date for completion of all 
processing of MOX fuel at Savannah River Site?
    Ambassador Brooks. If Congress approves the Department's funding 
request for fissile materials disposition in FY 2007 and the out years, 
the MOX facility will complete fabricating 34 metric tons of surplus 
weapon-grade plutonium into MOX fuel by approximately 2039. However, it 
is possible that the MOX facility could be operated longer to dispose 
of additional amounts of weapon-grade plutonium that may be declared 
surplus in the future.
    Mr. Spratt. How much plutonium is currently stored at Savannah 
River Site?
    Mr. Anderson. The Department has plutonium stored in approximately 
2,800 DOE Standard 3013 (DOE-STD-3013) containers at Savannah River 
Site. DOE-STD-3013 is DOE's standard for long-term storage of 
plutonium, and each 3013 container has a maximum capacity of 4.4 
kilograms of plutonium, although very few containers actually have the 
maximum amount of plutonium.
    Mr. Spratt. It is my understanding that immobilization uses 
vitrified high level waste to encase plutonium in glass for long term 
storage. If all the plutonium at Savannah River Site is slated for 
immobilization, is there enough high level waste to do the job?
    Mr. Anderson. In immobilization, whether using a glass or ceramic 
matrix to first immobilize plutonium in small containers, high activity 
radioactive liquid waste is then used to encase the smaller containers 
of plutonium. There is sufficient liquid waste at the Savannah River 
Site to immobilize the current inventory of plutonium. There is also 
sufficient liquid waste inventory at Savannah River Site to immobilize 
the inventory of non-pit surplus plutonium, estimated at 13 MT located 
at DOE sites across the complex. However, it is expected that some of 
this plutonium can be used in the MOX program (the exact amount is not 
known at this time due to lack of chemical data).
    If immobilization were chosen to dispose of the entire inventory of 
surplus plutonium (approximately 50 metric tons), there is not 
sufficient inventory of radioactive liquid waste at Savannah River Site 
to continue operation of the Defense Waste Processing Facility to 
immobilize the entire amount. Thus, subject to appropriate review under 
the National Environmental Policy Act and compliance with other 
applicable laws, it would be necessary to consider siting of a ``whole 
surplus inventory'' immobilization facility at Hanford, where the Waste 
Treatment Facility is currently under construction and expected to 
operate during the relevant timeframe, and with sufficient quantities 
of high activity waste, to immobilize the entire surplus inventory of 
plutonium.
    Mr. Spratt. If the MOX program were to be terminated today, when 
can we expect processing of plutonium at Savannah River Site through 
immobilization or another disposition path to begin?
    Mr. Anderson. If the Department were directed to terminate the MOX 
project and initiate a new project to immobilize the entire inventory 
of surplus plutonium, it is estimated that a plutonium immobilization 
facility could be operational by 2019, based on a reasonable project 
schedule and a project start in FY 2007. This estimated schedule is 
speculative at this point in time and is based on the knowledge gained 
during conceptual design of the previous immobilization project, which 
was terminated in 2002.
    Mr. Spratt. If we use immobilization only, when could we expect all 
processing of plutonium to be completed?
    Mr. Anderson. The Department projects that operation of an 
immobilization facility to immobilize the entire surplus plutonium 
inventory would take approximately ten years, and be completed in 
approximately 2028 based on a reasonable project schedule and a project 
start in FY 2007.
    Mr. Spratt. Do we expect that Russia would pursue fast reactor 
technology separate of international assistance?
    Ambassador Guhin. Russia has asserted in its nuclear energy 
statements and plans that it will continue to pursue fast reactor 
technology on its own, and this interest is manifested in its budget 
statements.
    Mr. Spratt. If Russia will pursue fast reactors with or without 
international funding, what benefits would the international community 
derive from investment in developing such a facility?
    Ambassador Guhin. The United States and other potential donors have 
consistently opposed utilization of any reactors for disposition if 
they are operated as breeders and have stressed that disposition 
cooperation as such will not extend to assistance in construction of 
any new Russian power reactors. From the disposition perspective, 
namely reducing the production of and eliminating excess separated 
weapon-grade plutonium, benefits could accrue from using such reactors 
only if Russia were to agree that its new fast reactors would be 
operated as burners--and not net breeders--of such plutonium and be 
subject to the pertinent conditions of the 2000 U.S.-Russian Agreement. 
Disposition cooperation between the two countries has for years 
included consideration of modifying Russia's existing fast reactor to 
be a net burner of plutonium as part of Russia's disposition program, 
but Russia has not indicated similar intentions with respect to fast 
reactors that it intends to bring on line in the future.
    Mr. Spratt. What safeguards (i.e. monitoring and inspections) has 
Russia agreed to regarding its plutonium disposition facilities? What 
can be done to encourage more progress in this area?
    Ambassador Guhin. The 2000 U.S.-Russian Agreement codifies a number 
of agreed and important monitoring and inspection principles and 
conditions. As stipulated in that agreement, we have been working with 
Russia on translating those principles into an agreed set of monitoring 
and inspection procedures. Such procedures must be completed prior to 
any assistance being used for the actual construction of any 
industrial-scale facility in Russia. We have made good progress in 
identifying key elements of a framework for a monitoring regime, 
including involvement of the International Atomic Energy Agency, but 
have yet to resolve a central monitoring issue related to confirming 
Russia's disposition of plutonium. We are continuing to work with 
Russia on this matter and expect to make progress when the two sides 
reach agreement on the broader issues concerning a modified Russian 
program and international cooperation with it.
    Mr. Spratt. How much funding has Russia committed to its own 
plutonium disposition program to date?
    Ambassador Guhin. To date, Russia has not committed or identified 
any significant Russian funding for a Russian disposition program, and 
this has been a paramount area of contention between Russia and 
potential donors, including the United States. The United States and 
others have for years insisted that a viable long-term program requires 
substantial Russian investment (political, financial and technical). We 
are continuing to work with Russia on reasonable burden-sharing 
principles and approaches for a modified Russian program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Cost estimates have grown from $1B in 2001 to $4.7B in 
summer of 2006, and that is before construction has ever started. This 
is only the estimate for construction up through cold start--it does 
not include the costs of hot commissioning, the cost of operations, the 
cost to decontaminate and decommission the plant, and the cost to 
subsidize Duke Power to burn MOX fuel. What is the total cost estimate 
for the MOX program goal of disposing of 34 metric tons of U.S. surplus 
plutonium?
    Ambassador Brooks. The plutonium disposition program involves three 
facilities at the Savannah River Site: a MOX Fuel Fabrication Facility, 
a Pit Disassembly and Conversion Facility (PDCF) and a Waste 
Solidification Building (WSB). The total lifecycle cost estimate for 
all three facilities is approximately $11 billion (including sunk 
costs). This includes a total project cost for the MOX facility 
(design, construction, and cold start-up) of $4.7 billion, which has 
been independently reviewed but cannot be validated until uncertainty 
with regard to DOE's FY 2007 budget request for fissile materials 
disposition is resolved. This cost estimate is comparable with 
immobilization and is less than the cost of storage, which is estimated 
to cost between $400-$500 million per year and still requires 
disposition facilities to be built and operated.
    With regards to arrangements for Duke Power to irradiate the MOX 
fuel, Duke Cogema Stone & Webster (DCS) has negotiated a subcontract 
with Duke Power which, based on the current price of uranium fuel, 
would require the utility to pay approximately $1 billion over the life 
of the plutonium disposition program. These payments would be made to 
the U.S. treasury, and have not been used to offset the cost of 
operating the MOX facility.
    Mr. Turner. The most optimistic DOE scheduling case for beginning 
MOX production is an operational plant in 2015. The State of South 
Carolina has stated that it will not accept additional plutonium coming 
into the State until MOX is operational and MOX fuel begins to leave 
the State.
    Is it your position that South Carolina should block any shipments 
of special nuclear materials into the Savannah River Site until the MOX 
plant is operational?
    Ambassador Brooks. No. Given current funding limitations, the MOX 
facility is not expected to begin operations until 2016. Nevertheless, 
DOE believes that it should retain the ability to transfer special 
nuclear materials to the Savannah River Site, as necessary, consistent 
with its commitment to surplus special nuclear material consolidation 
and disposition, its obligations to the State of South Carolina, and 
applicable law.
    Mr. Turner. Is the Federal government willing to bring cleanup, 
material consolidation efforts at other sites (e.g., Hanford) to a 
standstill until 2015?
    Ambassador Brooks. As stated above, the Department remains 
committed to the consolidation of surplus special nuclear material. 
This commitment will enable the continued cleanup at sites such as 
Hanford.
    Mr. Turner. The Government will not have MOX operational until 2015 
at the earliest, yet the statutory provision (even with the amended 
dates) begins to levy fines totaling $100,000,000 a year against the 
Federal government in 2012 if the MOX production goal is not achieved 
by 2014. How does the Administration plan to deal with these pending 
fines--seek legislative relief from the fine provision, or pay the 
fines to the State?
    Ambassador Brooks. In addition to resetting the schedule in Public 
Law 107-314, the FY 2006 Energy and Water Appropriations Act directed 
the Department to prepare and submit to Congress a new baseline 
schedule for the MOX facility by the end of this year. This new 
baseline will take into account all relevant factors, including the FY 
2007 funding level approved by Congress. This baseline will permit 
Congress and the Administration to consider what, if any, additional 
changes should be made to the statutory framework for the MOX facility.
    Mr. Turner. Without Yucca Mountain, there is no path out of South 
Carolina for plutonium (either in MOX fuel form or vitrified form). 
Under the latest DOE schedule, the Yucca Mountain repository will not 
become operational in 2017 at the earliest. Does South Carolina contend 
that it should be able to fine the federal government, even if we built 
the MOX plant, because the resulting MOX fuel would still remain in the 
State?
    Ambassador Brooks. We are unable to speculate about the position of 
the State of South Carolina. Public Law 107-314, as amended, however, 
does not impose any fines on DOE if the production objective is met, 
even if the MOX fuel remains in the State.
    Mr. Turner. The MOX plant is presently designed only to handle 
weapons-origin plutonium. In the original incarnation of the Global 
Nuclear Energy Partnership (GNEP), DOE had concluded (as had the 
Russian government) that MOX was an obsolete and ineffective 
technology. Under the latest version of GNEP, the Department is now 
recommending that we implement existing technology to begin recycling 
spent fuel in the near future (i.e.,. separation using PUREX or UREX+, 
MOX plant, and burning MOX fuel in existing U.S. light water reactors). 
For a price tag that will certainly be excess of $5B, should we be 
designing a MOX plant that will be dual-use and could also process 
commercial spent fuel?
    Ambassador Brooks. Without significant study we are unable to 
estimate what it would cost to convert the MOX facility to handle 
commercial reactor-grade fuel. However, if a decision were made prior 
to start of MOX construction, we estimate it would take several years 
to modify the design and relicense the facility with the Nuclear 
Regulatory Commission, and cost hundreds of millions of dollars. If a 
decision were made to convert the MOX facility after completing the 34 
MT mission, the impacts would be more significant.
    With respect to the latest version of GNEP, the Department plans to 
recycle spent fuel using an Advanced Burner Reactor and a Consolidated 
Fuel Treatment Facility. The baseline strategy for GNEP does not 
include a MOX plant or burning MOX in existing light water reactors.
    Mr. Turner. Scale of plant--$5B plus for a plant that will only 
process 34 metric tons is excessive when the 34 metric tons of 
plutonium represents only a fraction of the total inventory of surplus 
plutonium. This large an investment only makes sense if the MOX plant 
processes additional weapons plutonium or serves as a dual-use facility 
for civilian fuel as well. Is the Administration considering additional 
plutonium that could be dispositioned through a MOX plant?
    Ambassador Brooks. The U.S. MOX facility is nominally designed for 
a 20-year life but this could be extended to process additional 
quantities of weapon-grade plutonium expected to result from future 
weapons dismantlements. As noted previously, processing plutonium from 
commercial SNF would significantly increase the cost of the MOX 
facility.
    Mr. Turner. Several factors have changed significantly in recent 
months--the costs for MOX have grown dramatically, the Russian 
government has abandoned MOX as a strategy for disposing of excess 
Russia plutonium, and the U.S. has launched its GNEP initiative. All of 
these developments call into question the wisdom of building a MOX 
plant, as originally envisioned solely for processing 34 metric tons of 
excess U.S. plutonium, without some analysis that supports the change 
in program strategy. Is the Department going to submit to Congress any 
documentation that provides the cost analysis that demonstrates this is 
the most efficient path forward for material disposition?
    Ambassador Brooks. DOE has evaluated a range of alternatives to 
determine if changes or redirection should be made in its planned 
disposition approach. This evaluation includes alternatives for 
disposing of about 50 metric tons of both weapon-grade and non-weapon-
grade plutonium and about 25 metric tons of surplus highly enriched 
uranium (HEU) that currently lacks a disposition path (including spent 
nuclear fuel). Preliminary results of this analysis suggest that costs 
and other considerations of the current approach to plutonium 
disposition compare favorably with other alternatives. A report on this 
analysis has been provided to the committees of jurisdiction.
    Mr. Turner. Have the costs, dangers, and community concerns of the 
need to transport radioactive materials to the Savannah River Site 
(SRS) for disposition been considered? What precautions are being made 
to ensure transfer safe from both potential accidents and terrorist 
plots?
    Ambassador Brooks. As a matter of routine, the National Nuclear 
Security Administration's Office of Secure Transportation (OST) 
conducts in-depth safety analyses, vulnerability analyses, threat 
assessments, and security analyses of the Transportation Safeguards 
System (TSS). These analyses provide high confidence in the TSS's 
ability to successfully perform its mission. Extensive training is 
provided to the federal agents assigned the responsibility of 
transporting nuclear material. Routine route surveys are conducted for 
both safety and security. The TSS is independently validated annually 
to ensure it can defend shipments from terrorist attacks. The TSS has 
operated over 100 million miles without the loss of a nuclear weapon or 
dispersal of nuclear material. Additionally, OST's liaison program 
routinely meets with personnel in law enforcement and emergency 
management as identified by the governors of the states where OST 
travels.
    Mr. Turner. The international community, including the U.S., was to 
share in the cost to build the Russian MOX plant. Now that Russia has 
abandoned MOX for light water reactors and intend to pursue a fast 
reactor strategy, do we know whether any international partners will 
provide financial support for fuel fabrication for Russian fast 
reactors (which many European countries equate to breeder reactors 
which produce more plutonium)?
    Ambassador Brooks. The United States and its international partners 
would not support Russia's use of fast reactors unless the reactors 
were reconfigured as ``burners.'' Unlike ``breeders,'' these reactors 
consume more plutonium than they produce. DOE and Rosatom technical 
experts are currently evaluating how best to make this modification to 
Russia's existing BN-600 fast reactor. Reconfiguring the BN-600 reactor 
in this manner has long been a part of Russia's plutonium disposition 
program and is specifically allowed in the 2000 Plutonium Disposition 
Agreement. As a result, our G-8 partners remain committed to providing 
funds for fuel fabrication for Russian fast reactors configured as 
burners and no international pledges have been withdrawn.
    Mr. Turner. Even with the new fast reactor strategy, Russia will 
still need to build a plant to fabricate fuel to burn in the fast 
reactors. Given that the cost of the U.S. MOX has increased to nearly 
$5B, is the same true of the Russia fuel fabrication plant? If so, what 
share will the U.S. have to pay for the Russian fuel plant?
    Ambassador Brooks. There are no plans to increase the current U.S. 
pledge of $400 million. The cost of a Russian fuel fabrication facility 
cannot be estimated until Russia determines the reactors and fuel 
fabrication technology it plans to use for its disposition program.
    Mr. Turner. Considering that the U.S. is further along than Russia 
in implementing the Plutonium Management and Disposition Agreement 
(PMDA) signed by the U.S. and Russia in 2000, what specific actions can 
we look to for assurance that Russia is committed to plutonium 
disposition besides the joint statement affirming commitment signed by 
both countries on July 12, 2006? What are you doing to ensure that 
Russia is financially committed to providing the resources needed to 
complete plutonium disposition? What can be done to ensure that Russia 
follows through on its commitments?
    Ambassador Brooks. In addition to recent statements by President 
Bush and President Putin, and by Secretary Bodman and Rosatom Director 
Kiriyenko, Russia has committed to explore the use of its one existing 
fast reactor to begin disposing of approximately a third of a metric 
ton of plutonium per year several years before the U.S. plans to begin 
disposing of our own plutonium. Russia is developing a technical plan 
for its full 34 metric ton plutonium disposition program, which we 
expect the Russian Government to submit in December. We anticipate the 
Russian scenario to be consistent with its long-term nuclear strategy 
and therefore we fully expect Russia to support implementation both 
politically and financially.
    Mr. Turner. In your testimony you addressed Russia's desire to use 
advanced reactors (BN-800 fast-neutron reactors) as opposed to existing 
light water reactors to disposition plutonium. Mr. Bunn testified that 
BN-800 reactors, as traditionally designed, produce more weapons-grade 
plutonium than they consume. Considering this fact, would that not 
raise serious concerns for you as the U.S. plans to continue 
discussions with Russia about this possibility in August? Should the 
U.S. not focus on methods that render plutonium useless for weapons 
purposes?
    Ambassador Brooks. We are unable to speculate about plans for 
Russia's yet-to-be completed BN-800 reactor. However, the United States 
and our international partners would not support Russia's use of a 
Russian fast reactor configured as a breeder for plutonium disposition 
purposes.
    Mr. Turner. DOE, per Congressional direction, will be conducting a 
competition to host one or more integrated recycling centers to process 
spent commercial fuel. Interim storage, or process storage, of spent 
fuel will be an essential first step for any site that hopes to host 
the integrated recycling facility. Does South Carolina intend to 
compete for the integrated recycling facility and is it willing to 
accept interim storage of spent fuel as part of the package deal?
    Mr. Anderson. DOE does not know whether South Carolina intends to 
compete for the integrated recycling facility or if it is willing to 
accept interim storage of spent fuel as part of a package deal.
    Mr. Turner. In his testimony, Mr. Matthew Bunn proposed 
consideration of the all-immobilization option for plutonium 
disposition. Would you please expand on DOE's decision to focus on MOX 
efforts? Would you please also address in more detail the cost analysis 
of this decision?
    Mr. Anderson. DOE is evaluating a range of alternatives to 
determine if changes or redirection should be made in its planned 
disposition approach. This evaluation includes alternatives for 
disposing of about 50 metric tons of both weapon-grade and non-weapon-
grade plutonium and about 26 metric tons of surplus highly enriched 
uranium (HEU) that lacked a disposition path (including certain spent 
nuclear fuel). Preliminary results of this analysis suggest that costs 
and other considerations of the current approach to plutonium 
disposition are comparable with other alternatives.
    The Department's commitment to the current approach and plan for 
disposing of plutonium, which includes the MOX facility, the operation 
of H Canyon and the vitrification of non-MOXable plutonium is based on 
several factors: it provides a disposition path for all known 
inventories of surplus plutonium and uranium; it meets the objectives 
of the U.S. non-proliferation policy, including meeting the objectives 
and commitments in the 2000 U.S.-Russia Plutonium Management and 
Disposition Agreement; it provides a beneficial reuse of weapons grade 
plutonium (and highly enriched uranium) through its fabrication into 
fuel for irradiation in commercial nuclear reactors; it supports and 
enables proposed materials consolidation and Complex 2030 objectives; 
and provides the highest confidence in the cost estimates.
    An immobilization only option has the highest uncertainty in terms 
of cost. DOE would likely choose ceramic immobilization if it were 
decided not to pursue MOX and instead prepare the entire inventory 
(approximately 50 MT) of surplus plutonium for disposal as waste. The 
timeframe needed to complete research and development, design, 
construction and startup of an immobilization facility would result in 
the facility operating past the projected completion of the Defense 
Waste Processing Facility at Savannah River Site. Thus, subject to 
appropriate review under the National Environmental Policy Act and 
compliance with other applicable law, it would be necessary to consider 
siting of the ``whole surplus inventory'' immobilization facility at 
Hanford, where the Waste Treatment Facility, the only other facility 
that will vitrify radioactive liquid waste. Additionally, the Pit 
Disassembly and Conversion Facility would be needed to support the 
disposition of special nuclear materials.
    Mr. Turner. The international community, including the U.S., was to 
share in the cost to build the Russian MOX plant. Now that Russia has 
abandoned MOX for light water reactors and intends to pursue a fast 
reactor strategy, do we know whether any international partners will 
provide financial support for fuel fabrication for Russian fast 
reactors (which many European countries equate to breeder reactors 
which produce more plutonium)?
    Ambassador Guhin. The United States and other potential donors have 
consistently opposed utilization of any reactors for disposition if 
they are operated as breeders of weapon-grade plutonium, but have 
supported their utilization if they are modified to operate as net 
burners of such plutonium. Other potential donors have stressed over 
the years, as has the United States, that the key goal is the 
transparent, effective and safe disposition of excess Russian weapon-
grade plutonium under appropriate conditions. For most, if not all 
donors, I believe reactor and technology choices are secondary 
considerations, as long as those choices define a viable program and do 
not include disposition cooperation for any reactor operated as a net 
breeder. I would add that, based on several indications, we do not 
believe Russia has abandoned consideration of MOX for light water 
reactors, and it appears to have some potential interest in that 
approach.
    Mr. Turner. Even with the new fast reactor strategy, Russia will 
still need to build a plant to fabricate fuel to burn in the fast 
reactors. Given that the cost of the U.S. MOX has increased to nearly 
$5B, is the same true of the Russia fuel fabrication plant? If so, what 
share will the U.S. have to pay for the Russian fuel plant?
    Ambassador Guhin. U.S. contributions for support of a Russian 
disposition program are capped at $400 million, the amount previously 
pledged. Also, we do not expect any significant increase in other G-8 
pledges, totaling about another $400 million. Russia would have 
responsibility for covering all costs of its program that are not 
included in the agreed and capped areas for donor support. The United 
States and other G-8 partners have stressed that for any program to be 
viable, substantial Russian investment is required and discussions are 
proceeding with Russia on these key matters.
    Mr. Turner. Considering that the U.S. is further along than Russia 
in implementing the Plutonium Management and Disposition Agreement 
(PMDA) signed by the U.S. and Russia in 2000, what specific actions can 
we look to for assurance that Russia is committed to plutonium 
disposition besides the joint statement affirming commitment signed by 
both countries on July 12, 2006? What are you doing to ensure that 
Russia is financially committed to providing the resources needed to 
complete plutonium disposition? What can be done to ensure that Russia 
follows through on its commitments?
    Ambassador Guhin. The Liability Protocol for Plutonium Disposition 
was signed on September 15th. The key next actions will be reaching 
agreement and decisions by the governments on a modified Russian 
program and cooperation with it, including resolution of outstanding 
financial and monitoring issues, and application of the liability 
protocol. To these ends, State and DOE have been engaged with Rosatom 
and other potential donors on related policy, program, legal and 
technical considerations.
    Since early this year, we have been seeking to ensure Russia's 
investment by working with it to identify its own preferred program 
that is more consistent with its nuclear energy strategy and goals. We 
can have reasonable confidence that Russia will follow through when it 
defines a program that meshes with its strategies and interests 
(political, energy and technical) and commits politically and 
financially to it. U.S. leverage in this regard is at best limited, and 
linkages of U.S. program schedules to Russian program schedules has 
been and, if continued, surely will be counterproductive to U.S. 
interest in converting this most readily usable, nuclear-weapon 
material.

                                  <all>

</pre></body></html>
